<html>
<title> - POLITICAL PLURALISM IN THE OSCE MEDITERRANEAN PARTNERS</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


 
                   POLITICAL PLURALISM IN THE OSCE 
                       MEDITERRANEAN PARTNERS

=======================================================================

                                HEARING

                               BEFORE THE
                               
                       COMMISSION ON SECURITY AND
                         COOPERATION IN EUROPE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 16, 2014

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe
            
            
            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]            



                   Available via http://www.csce.gov
                   
                                __________
                                
                  U.S. GOVERNMENT PUBLISHING OFFICE
95-576                 WASHINGTON : 2015                  
                   
                   
_______________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="88eff8e7c8ebfdfbfce0ede4f8a6ebe7e5a6">[email&#160;protected]</a>  

                   
                   
                   
                   
                   
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               SENATE

                                                    HOUSE

BENJAMIN CARDIN, Maryland,           CHRISTOPHER SMITH, New Jersey,
  Chairman                             Co-Chairman
SHELDON WHITEHOUSE, Rhode Island     JOSEPH R. PITTS, Pennsylvania
TOM UDALL, New Mexico                ROBERT ADERHOLT, Alabama
JEANNE SHAHEEN, New Hampshire        PHIL GINGREY, Georgia
RICHARD BLUMENTHAL, Connecticut      MICHAEL BURGESS, Texas
ROGER WICKER, Mississippi            ALCEE L. HASTINGS, Florida
SAXBY CHAMBLISS, Georgia             LOUISE McINTOSH SLAUGHTER,
JOHN BOOZMAN, Arkansas                 New York
                                     MIKE McINTYRE, North Carolina
                                     STEVE COHEN, Tennessee
          
          POLITICAL PLURALISM IN THE OSCE MEDITERRANEAN PARTNERS

                              ----------                              

                             JULY 16, 2014
                             COMMISSIONERS

                                                                   Page
Hon. Benjamin Cardin, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Alcee Hastings, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     3
Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     4

                               WITNESSES

William Roebuck, Deputy Assistant Secretary for Egypt and Maghreb 
  Affairs, Department of State...................................     4
William Taylor, Vice President for Middle East and Africa, United 
  States Institute for Peace (USIP)..............................    13
Shibley Telhami, Anwar Sadat Chair for Peace and Development, 
  University of Maryland.........................................    15
Zeinab Abdelkarim, Regional Director for Middle East and North 
  Africa, International Foundation for Electoral Systems.........    19

                               APPENDICES

Prepared Statement of Hon. Benjamin Cardin.......................    31
Prepared Statement of Hon. Alcee Hastings........................    33
Prepared Statement of William Roebuck............................    34
Prepared Statement of William Taylor.............................    38
Prepared Statement of Shibley Telhami............................    40
Prepared Statement of Zeinab Abdelkarim..........................    42

 
         POLITICAL PLURALISM IN THE OSCE MEDITERRANEAN PARTNERS

                              ----------                              


                             JULY 16, 2014

          Commission on Security and Cooperation in Europe,
                                                    Washington, DC.
    The hearing was held from 10:00 a.m. to 11:47 a.m. in 
Capitol Visitor Center Room SVC 203/202, Washington, D.C., 
Senator Benjamin Cardin, Chairman of the Commission on Security 
and Cooperation in Europe, presiding.
    Commissioners present: Hon. Benjamin Cardin, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Steve 
Cohen, Commissioner, Commission on Security and Cooperation in 
Europe; and Hon. Alcee Hastings, Commissioner, Commission on 
Security and Cooperation in Europe.
    Witnesses present: William Roebuck, Deputy Assistant 
Secretary for Egypt and Maghreb Affairs, Department of State; 
William Taylor, Vice President for Middle East and Africa, 
United States Institute for Peace (USIP); Shibley Telhami, 
Anwar Sadat Chair for Peace and Development, University of 
Maryland; Zeinab Abdelkarim, Regional Director for Middle East 
and North Africa, International Foundation for Electoral 
Systems.

  HON. BENJAMIN CARDIN, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cardin. Well, welcome to the Helsinki Commission 
hearing. I want to welcome everyone here. It's a pleasure to 
have this hearing on the OSCE, ``Political Pluralism in the 
OSCE Mediterranean Partners,'' and I'm particularly pleased 
that Congressman Hastings is with us because--Alcee, the 
ranking Democrat on the Helsinki Commission in the House, has 
been the leader on the Mediterranean partnership issues, and he 
has invested a great deal of time by his personal visits to the 
region. And the last hearing that we had on the Mediterranean 
partnership was in 2009, I've been told, and that was coupled 
with the international seminar of parliamentarians from the 
region that Congressman Hastings organized, and one of the 
most, I think, productive discussions that we had that led to 
some very concrete proposals, so it's good now that we have 
another opportunity to evaluate where we are.
    And let me just make a couple brief opening comments, and 
then I'm going to turn it to my colleague for his comments. The 
OSCE, as I think everyone here knows, consists of 57 
participating states. But that's not the borders of the OSCE 
influence, as is clear from the Partners for Co-operation that 
we do have. And we do have, in the Mediterranean, Algeria, 
Egypt, Israel, Jordan, Morocco and Tunisia that are Partners 
for Co-operation. And they recognize the value of the OSCE 
document. They understood that this is a consensus 
organization, so you're not giving up any of your sovereignty 
by being--participating in the OSCE. They recognize the value 
of the OSCE in dialogue, to sit down and talk with your 
neighbors and resolve issues. And they recognize the core 
principles of the OSCE that deal with issues of respect of 
territorial integrity, that deal with peaceful resolutions of 
conflicts, and the core values that recognize that security is 
not just your military might, but also your commitment to 
economic justice and your commitment to good governance and 
human rights. And that's why the Helsinki OSCE principles have 
been so widely desired and has had a major impact within the 
Mediterranean partnership itself.
    Coming out of the seminar that I referred to in 2009 that 
Congressman Hastings was instrumental in convening, that 
seminar recommended functional partnership initiatives with our 
Mediterranean partners, including projects for youth exchange 
and broader accessibility of the OSCE initiatives for 
participants from the region. Our efforts also identified 
priorities for more leadership of the Mediterranean partnership 
from the region, which has become particularly relevant with 
the emerging empowerment of long-disenfranchised voices of 
political opposition.
    The OSCE and its Parliamentary Assembly have been able to 
generate unique opportunities for assistance in this new area 
of regional cooperation. For example, the OSCE Parliamentary 
Assembly was able to deploy an observation and assistance 
mission for the October 2011 elections to the Tunisian 
Constituent National Assembly. So they're using our mechanisms 
as a result of the initiatives that the Helsinki Commission has 
moved forward with on the Mediterranean partners.
    The OSCE has been able facilitate exchanges with young 
diplomats from the region to serve in the OSCE Secretariat. And 
additionally, key materials from the thematic units of the OSCE 
and ODIHR have been translated into Arabic. So we think we've 
made a lot of progress in this region. Civil society and 
experts from the region have become increasingly active in the 
OSCE events and dialogue opportunities, coupled with expert 
visits from the OSCE institutions to advise governments as they 
review their structural reforms.
    All of these activities have been possible through the OSCE 
Partnership Fund of extraordinary budget contributions from 
participating states and partners. These activities truly 
demonstrate the depth of the relationship stemming back to 
Helsinki Final Act of 1975, and leading us into the future.
    I might just point out that in Baku, the 23rd annual 
Parliamentary Assembly meeting that took place just a few days 
ago, the partners were very much present, and we had very good 
discussions, and they were totally engaged in the work. They 
don't have a vote, but they were totally engaged in the work. 
They treat their partnership with OSCE as a real opportunity 
for progress in their countries.
    And I might just add: The experience of the Mediterranean 
partners has generated a lot of interest in other regions of 
the world to use the OSCE framework. As we all know, President 
Park of the Republic of Korea, when she addressed a joint 
session of Congress, mentioned that she would like to have a 
dialogue opportunity with the countries in the Northeast Asia 
region. As a result of that suggestion, I have followed up with 
the countries in Northeast Asia. I chair the Asian--Northeast 
Asia--the East Asia and Pacific Subcommittee of the Senate 
Foreign Relations Committee. I have followed up, and we are 
engaged to see whether they want to work within the OSCE itself 
or set up a similar mechanism for dialogue and cooperation.
    So we're very proud of the progress that we have made and 
this hearing gives us an opportunity to hear firsthand from 
some--from experts as to how we can build on the success that 
we've made, planning into the future.
    And with that, let me turn it over to Congressman Hastings 
for his comments.

 HON. ALCEE HASTINGS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hastings. Thank you very much, Senator. I think you've 
summed up real adequately a number of our activities. I'd like 
to thank you for holding this hearing, in addition to thank our 
presenters who are here as well as our distinguished guests 
that are present.
    I spent a number of years traveling among all of our 
Mediterranean partners on behalf of several different OSCE 
Parliamentary Assembly presidents. And even before the Arab 
awakening, I sought, along with others, to empower the voices 
of the disenchanted in the region and to press those who were 
in power to let pluralism flourish. From Rabat to Cairo to 
Algiers to Oman, I observed a common thirst for meaningful 
civic engagement.
    The popular uprisings since the end of 2010 have shown the 
need for capacity development among the youthful population of 
the region, and I think all of us are mindful that each of our 
Mediterranean partners are full up with young people. And it 
was difficult sometimes to see so many, particularly young men, 
in Morocco and in Tunisia and Algiers and Egypt and throughout 
unemployed.
    The senator has talked about the conference that we 
convened here in Washington, and we're fortunate to have had an 
extraordinary staff working with us in that regard, and Alex 
Johnson helped, along with Robert Hand and countless others, 
Marlene Kaufman, and we've done a lot of follow-up work, Mr. 
Roebuck. For example, I took an interest in refugee issues, and 
I might add it is only heightened by ongoing events in that 
area of the world today. And I perceive some serious 
difficulties if we do not address, in a meaningful way, not 
just humanitarian issues, but other concerns of countries 
having to absorb these numbers of refugees.
    I smile at events--today, we are talking 50,000 or 60,000 
people on our border. Would that someone would be on the 
Jordanian border and see how many people have a quest to get in 
from Syria and Iraq and from elsewhere.
    Mediterranean partner states are beginning to come to the 
table and invest in the OSCE Partnership Fund. Morocco and 
Tunisia have even requested legal reviews for their structural 
reforms from the OSCE Office of Democratic Institutions and 
Human Rights, ODIHR. As I have recommended for years, 
investments are underway for youth exchanges and greater 
contributions from civil society in the region, and I applaud 
these efforts and especially look to our panel to remark on how 
we can do better, acknowledging the demographic trends and 
political realities.
    I'd be remiss to not mention the violent conflicts in Iraq 
and Syria, which have displaced millions and vastly changed the 
political landscape of the region. We are on a dark trajectory 
if we don't strategically invest in positive civic engagement 
and much-needed educational resources for those vulnerable 
populations. As I've said over and over, if we don't engage 
those populations, we will see them again in another form, and 
their demands will not be met through peaceful political 
channels.
    I look forward to our panelists on the role of the United 
States and the international community in affirming the 
aspirations of those who took to the streets demanding 
responsive government and basic civil liberties. I have had 
substantial meetings with Tunisians recently, and I suspect 
that of all of the countries in the region as far as pluralism 
is concerned, Tunisia at this moment is a little more advanced 
in addressing the subject, as well as Morocco is as well.
    But anyway, I'm so glad you're here. I see Ambassador 
Taylor just walked in, so we'll hear from him a little bit. We 
met along the way. Anyway, thank you. Thank you, Senator.
    Mr. Cardin. Thank you, Congressman Hastings.
    I should point out, of course Congressman Hastings was the 
president of the OSCE Parliamentary Assembly and now represents 
the OSCE Parliamentary Assembly as the special representative 
for the Mediterranean Partners.
    Congressman Cohen.

  HON. STEVE COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cohen. I just want to thank the chairman for putting 
together this panel. This is a very important part of the world 
and I'm here to learn. And I'm happy to see Mr. Roebuck here.
    Mr. Cardin. Thank you. Well, our first panel consists of 
Deputy Assistant Secretary of State for Near Eastern Affairs 
for Egypt and the Maghreb Bill Roebuck, a distinguished career 
Foreign Service officer with experience throughout the region, 
including service at a pivotal time as charge d'affaires in 
Tripoli, as well as the head of the Political Section acting 
deputy chief of mission in Damascus. Thank you for being here. 
And as is the tradition of this committee, your written 
statements and all the written statements from the witnesses, 
without objections, will be included in the record. And you may 
proceed as you wish.

  WILLIAM ROEBUCK, DEPUTY ASSISTANT SECRETARY FOR EGYPT, AND 
              MAGHREB AFFAIRS, DEPARTMENT OF STATE

    Mr. Roebuck. Great. Thank you, Chairman Cardin. Congressman 
Hastings, Congressman Cohen, thank you very much. I will make a 
brief oral statement and then I welcome answering any questions 
you might have. Thank you for inviting me to testify before you 
today on North Africa. It's a particular honor for me to do so 
before the U.S. Helsinki Commission.
    Morocco, Tunisia, Algeria and Egypt of course all 
participate in the OSCE Mediterranean Partners Forum, which 
provides an avenue for engagement with the OSCE, its 
institutions and the 57 participating states in promoting a 
vision of comprehensive security that includes political, 
military, economic, and environmental and human dimensions. We 
welcome initiatives such as this one that make important 
contributions to promoting democratic transitions and 
bolstering regional stability.
    Mr. Chairman, as you know, North Africa is a region of 
tremendous potential, the birthplace of the Arab Awakening, or 
Arab Spring. It's currently undergoing a difficult but critical 
transition, the likes of which it has not experienced since the 
beginning of decolonization. And each country in our region is 
at a different stage along the path of democratic transition. 
Let me speak just briefly about each country in North Africa 
that we'll deal with.
    Tunisia, as Congressman Hastings mentioned, has achieved 
much success already and continues to realize the democratic 
promise of its 2011 revolution. It's made positive strides with 
the ratification of a new constitution and the swearing in of 
an independent government that will lead it to elections later 
in 2014. However, it still faces a challenge from violent 
extremists, particularly Ansar al-Sharia in Tunisia, that seek 
to counter its democratic transition; thwart the government's 
authority; insert an extreme form of Islam through harassment, 
incitement of violence and terrorist acts. We commend the 
government's efforts so far to counter this threat and we're 
optimistic about Tunisia's democratic transition.
    Libya, on the other hand, faces many difficulties and I 
think we must take the long view in assessing Libya's progress 
towards democracy. After 42 years of dictatorship, Libya 
suffers from instability and poor governance. And these are 
challenges that Libya must confront, not alone but alongside 
those of the international community, particularly the 
partners, who have been heavily involved like ourselves, and 
Libyans themselves. We will work together to bring stability 
and security to Libya's fledgling democratic transition.
    Libya is making progress, evidenced by its recent free and 
fair elections for a new Council of Representatives. This is 
the third successful set of elections that Libya has held since 
2012. These elections represent an important milestone in 
Libya's path towards achieving the aspirations of its February 
17 Revolution. Equally important for Libya is the work 
currently being undertaken by the Constitutional Drafting 
Assembly, which was also elected back in February.
    On the bilateral relationship with Morocco, we have a very 
strong bilateral relationship. It's focused on promoting 
regional stability, supporting democratic reform efforts, 
countering violent extremism, and strengthening trade and 
cultural ties. Indeed, Morocco is one of our closest 
counterterrorism partners in the region. It's an active member 
of the Global Counterterrorism Forum and it's been a non-
major--a major non-NATO ally since 2004. From an assistance 
perspective, our relationship with Morocco is robust and 
supports a range of activities to increase political 
participation, strengthen women's rights and counter violent 
extremism.
    Algeria and the United States also build on a strong 
bilateral relationship, characterized by our shared interest in 
combating terrorism and facilitating greater stability in the 
region. Our cooperation with Algeria on a range of issues 
further strengthens our relationship and provides greater 
security in the region. We appreciate, for example, the work 
that Algeria has done with Tunisia to combat smuggling and 
terrorism, and we continue to encourage Algeria to use their 
expertise and their capabilities to ensure greater stability in 
the Maghreb and the Sahel, where Algeria can be a big player.
    Lastly, Egypt faces tremendous political, economic and 
security challenges. We believe a stable, prosperous and 
democratic Egypt will make the strongest and most effective 
partner as we pursue our shared interests. We do view Egypt as 
a strategic, long-standing partner with us, and we are working 
on that relationship. We share several crucial interests with 
Egypt, including countering transnational threats of terrorism, 
weapons trafficking, and maintaining regional stability on 
several fronts. The foremost among them is peace with Israel.
    At the same time, it's also critical that we encourage a 
trajectory in Egypt that advances economic reform, democracy 
and respect for human rights and fundamental freedoms. And 
these two policy imperatives are reflected in our assistance. 
Through our economic assistance, we're seeking to demonstrate 
our commitment to achieving prosperity and improving the lives 
of the Egyptian people. And through our military assistance, 
we're helping Egypt protect its borders and counter violent 
extremism that threatens Egypt and the broader region. We also 
continue to engage diplomatically with Egypt and the broader 
region, but particularly with the Egyptian government, to 
underscore the need for democratic and economic reform, and we 
continue to work closely with Congress to ensure that our 
assistance supports broad strategic interests in Egypt and in 
the region.
    These are historic times in North Africa and the U.S. 
government is working with our partners to assist and to 
provide support during this transition. Chairman Cardin, 
Congressmen, I want to thank you for the opportunity to testify 
before you today. Certainly we are aware that our budgets are 
facing increasing pressure, but this region remains vital to 
protecting our national interests. With careful, targeted 
assistance and smart diplomatic engagement, we're successfully 
advancing our strategic interests in this region. Thank you 
again for your time and your attention, and I look forward to 
answering your questions.
    Mr. Cardin. Well, thank you for your testimony and thank 
you for your service. Let me at least get your view as to how 
helpful OSCE can be in Northern Africa particularly. We know 
that they have governance issues and election issues. ODIHR 
provides incredible help to member states of OSCE in regards to 
those issues. We know they have free media issues. We have a 
special representative for the media. We know that they have 
tolerance problems. We had the special representatives that 
deal with the different tolerance areas.
    Has the OSCE been effective in Northern Africa, and can it 
be more effective in trying to accomplish the goals that you 
elaborated, which is basically good governance and stability 
and stronger allies for the United States?
    Mr. Roebuck. Thank you. Thank you, Chairman, for the--for 
the question. The answer is yes. I think the OSCE and the 
partners have been--it has been an effective organization. It 
has--it has already done, I think, several things that have 
been successful in strengthening governance, helping with civil 
society. I'll just lay out a couple of examples of what they've 
been able to do.
    The Office for Democratic Institutions and Human Rights has 
been engaged with these partner countries, as you mentioned. 
This office gathered government and civil society 
representatives in Warsaw, for example. And these were 
representatives from Tunisia, Algeria, Morocco and Egypt for 
basically workshops on human rights and the democracy dimension 
that can help in these regions.
    The Office of Democratic Institutions and Human Rights has 
also trained election observers in several of these countries, 
and these observers have played a critical role in ensuring 
that these elections in Tunisia, for example, in Morocco and 
Egypt, were technically acceptable and, generally speaking, 
free and fair. They have also worked with women's participation 
in political processes, which is a very important area, and 
gender equality.
    I do think there are areas where we can do further 
cooperation. You mentioned, for example, work with media. I 
think that's a very important area where there could be 
cooperation. A lot of these countries struggle with trying to 
develop free media. And the work that we're doing in these 
countries, and they're struggling with, continues on good 
governance, organizing elections, and strengthening civil 
society. In all these areas I think there's tremendous area for 
further cooperation.
    Mr. Cardin. You mentioned Libya in your review. Is it worth 
exploring a partnership of Libya and OSCE? There have been 
other countries that have shown an interest of affiliating with 
OSCE. I'm not aware of Libya's interest. Is that something we 
should be encouraging?
    Mr. Roebuck. Yes, sir, I believe it is. Libya is interested 
in joining the partnership. In fact, they have--I believe they 
have put forward an application to do so. It requires, I 
believe, a consensus decision, so it's still being deliberated 
but we're strongly supportive of including Libya.
    As I noted in my opening remarks, Libya is a country that 
faces tremendous challenges going forward in terms of 
governance, in terms of establishing basic security, protecting 
its borders, getting control of violent extremists who are 
using ungoverned space in Libya. And we believe that a 
partnership--that this is one example--participating in the 
Mediterranean Partnership with OSCE is one example of trying to 
bring Libya into--further into the international community, 
integrating it more closely with its neighbors.
    It's going to have to rely very closely with its neighbors 
and with help from partners in Europe as it moves forward to 
try to grapple with security challenges like controlling its 
borders and also with governance--building good governance 
institutions inside Libya. So we're strongly supportive of 
Libya becoming further engaged with the OSCE.
    Mr. Cardin. The conflict in Syria, and now with the 
problems in Iraq, are having major impact on partner countries. 
Jordan is directly affected by this. Egypt is directly affected 
by this. And obviously the underlying problems spill out to all 
of the partner countries. Can you just give us your assessment 
as to what these conflicts meant in regards to advancing OSCE 
principles in the partner countries?
    Mr. Roebuck. I'll say a few words about these conflicts in 
Syria and Iraq. It's a little outside my area of expertise but 
I'll comment on the way they affect the countries in North 
Africa and the Maghreb, and I'll be happy to provide any 
further information you would like.
    A couple of points. First, the situations in Syria and Iraq 
have, I think, more than anything else, created a counter-
narrative to the Arab Spring democratic transitions. And this 
has been--this is--this has helped undercut, in some ways, the 
progress that these countries in North Africa made in 2011 to 
2012 and into 2013. In some ways Iraq was a legacy situation 
that had already--the war had already taken place. Syria in 
some ways was an Arab Spring-type development in the beginning. 
But both these--both these countries have developed in 
different ways. The conflicts there have developed in ways that 
have created a counter-narrative to the Arab Spring democratic 
transition, and this has been problematic.
    In addition to that, of course, these conflicts have 
spawned the increase in violent extremism. It was already a 
problem in the region. I think it's gotten a new footing in the 
region because of these conflicts. And finally, it's created 
humanitarian and refugee issues that have actually had 
spillover effect into North Africa. Libya, Egypt and Morocco, 
for example, are all dealing with refugee issues that have--
Syrian refugees that have come to escape that conflict.
    They're also dealing with jihadi elements in their own 
countries that want to go and fight in these conflicts. Iraq 
was a source for this, a magnet for this earlier, but Syria is 
a--is a strong, strong magnet for it now. They go and fight for 
a year or two in Syria then come back to these countries and 
pose major security challenges in a country like Morocco, for 
example. The countries are struggling to deal with this through 
operational counterterrorism means, through soft-side 
countering violent extremist ideology, and through regional 
counterterrorism efforts.
    Mr. Cardin. Thank you.
    Congressman Hastings.
    Mr. Hastings. Thank you very much, Mr. Chairman. I thank 
you very much, Secretary Roebuck.
    I want to take advantage of the fact that you and 
Ambassador Taylor are here and have had rather extraordinary 
experiences in your respective capacities and roles in not just 
an area of vital interest that we have pointed to about 
pluralism with our Mediterranean partners, but I can't let 
events in the last three days--and it seems a lot of times when 
we schedule matters, events kind of overtake matters, but in 
this instance the two of you have had experiences in Gaza and 
in the West Bank. And in previous years when difficulties 
occurred, or in the Mubarak era with Egypt, Egypt played a 
rather pivotal role in helping to quiet the ongoing events in 
the respective years that those events exploded.
    Now we see an even worse situation, quite frankly. And the 
question I guess I have is there a role that Egypt can play, 
and what, if anything, from the perspective of the United 
States, can we do to assist in trying to bring some peaceful 
resolution and political resolution to ongoing problems that 
exist between Israel and Hamas?
    One of the concerns I have, of course, is that a different 
role seems to be taking place in Egypt, and specifically as it 
pertains to Hamas, they've cut off, rightly, I think, a lot of 
the channels that had been open, the tunnels and--in the Sinai, 
a couple of things along those lines. But just give me your 
take, and I'll stick to Egypt because I don't think that they 
are the only ones that ought to weigh in. I certainly think 
Qatar and Arab Emirates and Saudi Arabia, which aren't a part 
of this particular matter today, have significant roles to 
play. But how can we activate it? How can we, with LCC, get he 
and others involved, in light of the fact that they have 
ongoing conflicts in their own countries?
    Mr. Roebuck. Thank you, Congressman Hastings. First I would 
say that we do believe that Egypt can play a role in helping to 
de-escalate the situation in Gaza and with regard to Hamas and 
its conflict with Israel that's ongoing. We have talked with 
the Egyptians about this. Secretary Kerry has raised this 
issue. We believe that the Egyptian government wants to be 
helpful and that they have the capability of doing so.
    As you note, historically they have had the ability to work 
with Hamas as a mediating-type influence that can de-escalate. 
It's true that in the last few years, because of Arab Spring 
developments, they have been more absorbed internally, with 
internal developments, and that this to some degree may have 
affected their--at least their focus. But we still believe that 
they have the capability to play this role, and they've 
indicated a willingness to do so, and we've asked them to help 
out, and they are doing so and counseling both sides, but 
particularly Hamas, to de-escalate.
    With regard to the broader aspect of your question about 
their efforts in the Sinai and on counterterrorism there, the 
current government has been very active in the Sinai, a very 
up-tempo set of operations. They have closed a lot of these 
tunnels that have been used for smuggling into Gaza. They have 
mounted counterterrorism operations against some of these 
extremist groups like Ansar Beit al-Maqdis, and they've had 
some success against these groups. And we want to be supportive 
of these efforts.
    So overall, focus has been a bit internal, but we believe 
they can help, and we have asked them to do so and believe they 
will do so.
    Mr. Hastings. I appreciate that. Just one--there are 
several questions I wanted to ask about Egypt and the Islamist 
issue and where you thought they were going to go with that, 
but I'll pass on that because I really do believe that in 
Tunisia, Morocco and Algeria, we have, in my judgment, an 
opportunity to undertake to do some things perhaps in a more 
unique fashion. For example, I would ask of you what role, if 
any--and it may be early in their developing pluralism, but 
what role, if any, do you see trade playing? And I see 
opportunities with reference particularly to Tunisia, and I 
would make one added comment. You and Senator Cardin mentioned 
Libya, and you also mentioned border control. While it is a 
major concern for us in our own country controlling our own 
borders, the simple fact of the matter is, for example, in 
Tunisia, Libyan matters, not just the terrorist matters, but 
refugees as well, spill over. The same thing comes to Tunisia 
from Mali and that area. Those problems spill over.
    And I think if anything, we could begin thinking about 
trade, at least talk about it, and two, that we could do what 
we can with these respective countries to assist them in border 
security, recognizing the limitations that we have. And there's 
a lot in this. I'll--we've gone in one of our funds for support 
from $4 million to $500,000. That's just a real small amount of 
money, and I don't know how you and others coordinate it, but 
it would seem to me that we--if there was ever a time when the 
agencies who are directly involved need to be coordinating 
their activities, it would be now.
    Mr. Roebuck. Thank you, sir. On the--let me start with the 
border issue, and then I'll go back to the trade issue.
    I agree with you completely about the imperative of trying 
to help these countries with their border challenges. You're 
absolutely correct that part of the internal security problems 
that Tunisia faces are caused by spillover from Libya. 
Terrorists in Tunisia are fleeing into Libya and finding 
ungoverned space they can use for training camps and for safe 
haven and then going back across that border to, when they can, 
mount operations against the Tunisian government.
    We're working with the Tunisian government. We're working 
with the Libyan government also on trying to shore up border 
security efforts. We have a significant border security effort 
with Libya that we're getting off the ground. It's a--Global 
Security counterterrorism--Contingency Fund, GSCF, which will 
cooperate with an EU effort on the borders in Libya. It's going 
to be a big challenge, and it's going to take years to get it 
under--they're--basically, their border control mechanisms have 
collapsed. So it's going to be a big challenge. In Tunisia, we 
are also doing border security efforts with the Ministry of 
Defense and the Ministry of Interior through some of our 1200 
series programs, 1207, 1206, that type of thing.
    So it's a huge challenge, and then the other way that we 
try to tackle the borders is through regional efforts, which 
can also be effective through the--like, the trans-Sahara 
counterterrorism partnership is one avenue that we use for 
this. But we do need to redouble our efforts. It's a huge 
challenge.
    On the trade side, I agree with you, trade and promoting 
economic development, private sector development, job 
creation--these types of efforts are critical. Youth 
unemployment in many of these countries is over 50, 60 percent, 
and the populations of these countries is about 50 percent 
youth. So huge numbers of these young people, particularly 
young males who might be tempted by more extremist ideology, 
are not gainfully employed, so that's one subset of the whole 
trade and economic revitalization effort that's needed.
    We have a free trade agreement with Morocco. It has boosted 
trade on both sides significantly. We have trade and investment 
framework agreements with Algeria and with Tunisia. The 
Tunisians are interested in a free trade agreement. We have not 
moved forward on that at this time, but we're working with them 
to invigorate--reinvigorate the TIFA, the trade and investment 
framework agreement. We also have an enterprise fund, Tunisia-
American Enterprise Fund, that's capitalized at, I think, a 
hundred million dollars, and a similar fund in Egypt 
capitalized at two or three times that size because of the 
bigger size of the country.
    So these are huge issues. Trade can be used to help 
stabilize the situations in these countries and help with 
governance and capacity-building of the youth, which is 
critical.
    Mr. Hastings. All right, thank you.
    Thank you, Senator.
    Mr. Cardin. Congressmen Cohen.
    Mr. Cohen. Thank you. Thank you, Mr. Chairman.
    My main concern is ISIS. And I'm not that aware of their 
tentacles. Do they have allies, cohorts, sympathizers 
throughout the Maghreb?
    Mr. Roebuck. They--it's not clear yet. There have been some 
preliminary indications that the group I mentioned in the 
Sinai, Ansar Beit al-Maqdis, for example, which is a violent 
Islamist extremist organization with some possible ties to--or 
al-Qaida--there are indications recently that they have pledged 
allegiance to ISIS. I would say that those reports so far are 
very preliminary and might not end up being confirmed, but they 
are out there.
    If the situation in Iraq and Syria continues, that type of 
influence could spread. I would say for right now, it's 
relatively limited in the region. I would say the broader 
trends that I mentioned, the flow of foreign fighters, the more 
general rise of violent extremism are the two trends that are 
more worrisome. I don't think they're specifically focused on 
ISIS at this point, but that could develop.
    Mr. Cohen. ISIS's goal, I guess, is they want to have a 
state in Syria and Iraq, Islamic state. But I would think their 
goal is to have a larger caliphate that encompasses the entire 
region. Is that not something you would surmise as well?
    Mr. Roebuck. That is what their ideology sort of ascribes 
to, Congressman. I mean, there are different inflections of 
that depending on which group it is you're talking about, but 
that is a traditional ambition of these types of groups. My 
sense is that for now what they've been able to achieve in 
Syria and Iraq is a significant partial meeting of that 
ambition. I wouldn't say they're satisfied with it, but I would 
say that they have made significant gains towards that broader 
Islamic caliphate-type ambition, and that's why it's so 
important, the efforts that we are undertaking with others to 
counter that effort.
    Mr. Cohen. And what type of influence do they have in 
Jordan, if any?
    Mr. Roebuck. Congressman, on that one, I may have to get 
back to you. I don't have the information at my fingertips. I 
would--I mean, just in general terms, I would say because 
Jordan is right on the border of both of these countries and 
historically has been very influenced by developments in Syria 
and Iraq, it's inevitable that--they're right on the front line 
of what's going on. Border controls on the Iraq side, for 
example, have fallen to these elements, and that inevitably 
implicates Jordan immediately border control and how to deal 
with these elements. I suspect there are also ideological 
influences that are beginning to penetrate into Jordan. But 
beyond that, I might have to defer to my experts on Jordan and 
get back to you.
    Mr. Cohen. The Arab Spring didn't hit Jordan and Morocco 
particularly. Morocco was kind of a soft spring, but with kind 
of reform, limited constitutional extensions. How secure do you 
believe the monarchies are in those two countries from the same 
aspirations that we saw exhibited in Tunisia and Libya and 
Egypt?
    Mr. Roebuck. Thank you, Congressman Cohen. I think the--in 
some ways, the traditional monarchies have helped those 
regimes, whether some of the instability and unrest that swept 
through other parts of the Arab--North Africa and shaped the 
Arab Spring. In Morocco, for example, I think the--that 
monarchy is hundreds of years old, and I think it provided some 
legitimacy to the government, and there's significant respect 
for the monarchy there. And in--I think it sort of softened the 
unrest that went through there. I also think that the king put 
forward some reforms that helped take the--some of the force 
out of the unrest that was developing in Morocco. He put 
forward a series of reforms. They voted on a constitution that 
had a lot of those reforms in them in 2011, and that has 
helped.
    Mr. Cohen. But they're minimal reforms, are they not? I 
mean, they really haven't gone very far, it's--and the king 
still has a great deal of power. And I've been reading lately 
that it seems like the Moroccan people are not particularly 
satisfied. Have you--is that something that you've observed or 
been made aware of?
    Mr. Roebuck. I would say yes and no on the question. They--
the reforms are relatively limited, you're correct. I mean, 
they did try to put some minimal limits on the king's power, 
particularly his power to appoint certain types of individuals. 
They--the reforms sought to strengthen the role of the 
legislature. These types of reforms are--I would call them 
works in progress. But you are absolutely correct, the king and 
the palace retain significant, extensive power and influence in 
Morocco, and the strengthening of those democratic 
institutions--there remains a lot to be done.
    On the dissatisfaction that Moroccan citizens feel and 
their desire for further reform, I think the evidence for that 
is mixed. I would surmise that you're probably correct that--
because I think people generally speaking, everywhere have a 
desire for more freedom, and they want to develop democratic 
institutions. But there has not been significant unrest in 
Morocco since the Arab--
    Mr. Cohen. So you're not concerned about the monarchies in 
Jordan and Morocco being able to sustain themselves, to 
survive?
    Mr. Roebuck. No, not at this point, no, sir.
    Mr. Cohen. OK. Thank you, sir.
    Mr. Roebuck. Thank you.
    Mr. Cardin. Thank you very much for your testimony. We 
appreciate it very much.
    Mr. Roebuck. Thank you. Thank you very much for having me.
    Mr. Cardin. We'll now turn to our second panel. And we're 
pleased to invite up Ambassador Bill Taylor, vice president of 
the Middle East and Africa of the United States Institute for 
Peace. Ambassador Taylor is very well-known. His most recent 
public service was State Department special coordinator for 
Middle East transition, coordinating support to Egypt, Tunisia, 
Libya and Syria. We know Ambassador Taylor for his work in the 
Mideast Quartet as well as the former ambassador to Ukraine. We 
will not question him today on Ukraine, but we could certainly 
do that.
    Dr. Shibley Telhami, the Anwar Sadat professor for peace 
and development at the University of Maryland--that is--I'm 
very familiar with that position.
    And Brookings Institution fellow--Dr. Telhami has made 
pivotal contributions to the Arab-Israeli peace process 
negotiations, is an expert on public opinion trends in our 
countries of interest today. So thank you very much for being 
here. We appreciate it very much.
    Then we have Zeinab Abdelkarim, the regional director for 
the Middle East and North Africa at the International 
Foundation for Electoral Systems. Her expertise in electoral 
systems will help us characterize the state of reforms in the 
political processes throughout our countries of interest.
    So we welcome all three of you to this hearing. As I 
explained earlier, your prepared written statements will be 
made part of the record without objection. You may proceed as 
you wish. And we'll start with Ambassador Taylor.

  WILLIAM TAYLOR, VICE PRESIDENT FOR MIDDLE EAST AND AFRICA, 
               UNITED STATES INSTITUTE FOR PEACE

    Mr. Taylor. Senator Cardin, Mr. Hastings, Mr. Cohen, thank 
you very much for the opportunity to be here. Glad to join my 
distinguished colleagues on this panel.
    Political pluralism in several of the Arab countries is a 
very timely topic, as you've already referred to this morning. 
I'm very pleased to follow Bill Roebuck, a good friend from 
earlier times, and pleased that he had made many of the points 
that I will try to reinforce.
    The views I express today are solely my own and do not 
represent those of the United States Institute of Peace, which 
doesn't take policy positions, as you well know. I'll 
concentrate this morning on two of the OSCE Mediterranean 
partners for cooperation, Tunisia and Egypt.
    Tunisia has demonstrated remarkable maturity and commitment 
to the idea of political inclusiveness, and I'm sad to say, the 
Egyptians have not. At the beginning of 2013, Tunisia was 
struggling politically and economically and, was facing violent 
unrest. The elections in 2012, we recall, had given the 
moderate Islamist party Ennahda a plurality. It formed a 
coalition with two secular parties, it was called the troika. 
This troika was attempting to govern and create a new 
constitution at the same time.
    After broad consultations around the country on various 
aspects of this new constitution, parliamentary work, which was 
required to finish the work, had stalled by early 2013. The 
attack on the U.S. embassy in Tunis by extremists Islamist 
forces in September 2012 had demonstrated the weakness of the 
government and of its security forces. The instability was then 
exacerbated in 2013, early 2013, February, with the 
assassination of prominent opposition party member, Chokri 
Belaid.
    While the extent of violence in Tunisia was small compared 
to the numbers killed in other countries of this region, these 
incidents shocked Tunisians and led to two events: first, the 
resignation of the Ennahda prime minister, and second, an 
effort by civil society leaders to pull the country back from 
the crisis. Several political parties supported the effort. 
Ennahda did not.
    At the same time--this is the beginning of 2013--the 
Islamist government that had formed in Egypt under Mohammed 
Morsi was also struggling to govern and to write a 
constitution. Unlike in Tunisia, however, the main Islamist 
party in Egypt, the Muslim Brotherhood, had won a majority in 
the parliamentary elections, and Mr. Morsi had won a tight race 
for president.
    Also unlike Tunisia, the Islamist majority in the Egyptian 
parliament and the Islamist president forced through a 
constitution without attempting to achieve consensus. Further, 
security forces and the Muslim Brotherhood supporters attacked 
peaceful demonstrators. Women's rights were violated, 
journalists were suppressed, and police abuse continued.
    President Morsi issued a decree that exempted his decisions 
from judicial review. Demonstrations grew in opposition to the 
government's handling of the constitutional process as well as 
the social legislation in the parliament and economic 
mismanagement, leading to a large army-sponsored demonstration 
on June 30th, 2013, and a military coup on July 3rd that 
installed a military-backed civilian government.
    At this point, events in Tunisia and events in Egypt 
intersect. Before the coup in Egypt, the Tunisian Islamist 
party, Ennahda, had resisted efforts by civil society to bridge 
political differences in Tunisian society. After the coup and 
another political assassination in Tunis, Ennahda decided to 
join what was then being called the Tunisian national dialogue. 
The Quartet-led discussions--there were four members of civil 
society in Tunisia--decided to bring in political parties. 
These discussions then lasted through the fall and into the 
winter.
    In January 2014, this civil society-led but with 
participation of the main political parties reached agreement 
on three important points. They agreed on a text of the 
constitution, which had not been able to be accomplished, 
achieved in previous times when it was just in the parliament. 
Second, they agreed that new elections, long-stalled, would 
happen by the end of this year, by the end of 2014. And even 
more remarkably, the Ennahda-led coalition government agreed to 
step down and hand over power to a nonpolitical interim 
government that would take governmental influence out of the 
preparations for the elections later on this year.
    In Egypt, meanwhile, the military-installed government had 
begun a harsh crackdown on the Muslim Brotherhood, killing more 
than a thousand Egyptians, jailing and prosecuting thousands 
more. Hundreds at a time have been convicted, sentenced to 
death, often on little evidence. The repression, which the new 
military-backed government defended as a fight against 
terrorists, soon extended to journalists, activists, and 
liberal groups accused of supporting terrorists.
    This year Field Marshal and Defense Minister al-Sisi 
declared his candidacy for president under a newly ratified 
constitution and in May won an overwhelming victory, even 
though turnout in the election was disappointingly low. U.S. 
assistance to the government of Egypt, cut off after the coup, 
as called for by U.S. law, was partially restored.
    Political pluralism, the topic of these discussions, in the 
region I believe is at its broadest in Tunisia, which is why I 
wanted to focus attention on this aspect of the Arab Awakening, 
the Arab Spring. The constitution was approved as a result of 
wide consultation across the country, full debate in the 
parliament, political compromise struck by civil society 
leaders and adherence to agreed rules as the parliament 
ratified the constitution overwhelmingly, with the 
parliamentarians standing to sing the Tunisian national anthem 
after the historic vote.
    The leading role of civil society pulling the country back 
from violence, division and gridlock is the model of dialogue 
over confrontation and conflict. The Tunisian national 
dialogue, led by non-governmental quartet, as I said, was able 
to find consensus, bring in the quarreling political parties 
into the discussion, forge compromises that have set Tunisia on 
a positive if still fragile course toward a successful 
transition.
    Egypt's political pluralism, on the other hand, is at best 
reminiscent of previous military dictatorships. The new 
military-backed government under President al-Sisi has not 
limited security measures to violent extremists, and it has 
instead used police and the courts to eliminate political 
opposition.
    My recommendations: first, the United States and the 
international community should increase support for the 
Tunisian government and people as they continue to demonstrate 
that political pluralism is compatible with Islamic societies 
and is the formula for a successful transition to democracy. 
This assistance should include financial support from Western 
governments, international financial institutions, and the 
international private sector. Second. The United States should 
negotiate and sign a free trade agreement with Tunisia. And 
third. The United States and Europe should increase 
opportunities for Tunisian students to study abroad.
    In Egypt, the United States and the international community 
should continue to condemn the repression, publicly and 
privately, as counterproductive and short-sighted. U.S. 
assistance to Egypt should concentrate on programs that enable 
Egyptians to take advantage of educational opportunities, both 
in Egypt and abroad. A large program of scholarships for 
Egyptian young people, with an emphasis on women and 
underdeveloped parts of the country, could pay great dividends 
for Egypt and for U.S.-Egyptian relations.
    Mr. Chairman, I'm glad to answer questions.
    Mr. Cardin. Well, thank you. Appreciate that. Dr. Telhami.

 SHIBLEY TELHAMI, ANWAR SADAT CHAIR FOR PEACE AND DEVELOPMENT, 
                     UNIVERSITY OF MARYLAND

    Mr. Telhami. Thanks very much. Mr. Chairman, allow me as a 
citizen of--resident of Maryland and professor at the 
University of Maryland to thank you for your service to our 
state and to the country.
    Mr. Cardin. Thank you.
    Mr. Telhami : I'd like to focus my comments on really the 
macro level of what's driving all this change in the Middle 
East. Let me start by acknowledging that this is not a good 
time for pluralism, freedom and democracy in the region. It's 
obvious to all of us. The question is, why is that the case? 
It's not that the region has been exactly known for democracy, 
for freedom and pluralism, it is that we really had high 
expectations, particularly with the advent of the Arab 
uprisings in 2010. The Tahrir Square pictures really generated 
a lot of excitement and hope across the globe as well as in the 
region. So what has happened? Why isn't it going the way we 
expected? That's what I'd like to talk about.
    Let me start by talking about what is profoundly new in 
what's happening in the Middle East over the past few years. 
What is this Arab uprising? What's profoundly important and 
likely enduring in these Arab uprisings?
    Let me start with one thing that is the most profoundly 
important, and that is that we're witnessing the empowerment of 
the individual on a scale we had never witnessed before, and it 
is enabled by an expanding information revolution. It's not 
going to go away. It's going to stay with us. And if you want 
to understand the scale of it, you have to compare it at some 
level with the Industrial Revolution: the empowerment of the 
individual, for very different reasons, in the West through 
industrialization and economic independence of the individual. 
We are seeing something akin to that because of the information 
revolution, and therefore people want their voices heard. That 
aspect of the Arab uprisings is here to stay. It's not going to 
go away. There'll be some reversal here and there, but it's 
expanding.
    And in the long term, it's only good news because frankly, 
that's what's needed to happen in the long term. But in the 
short to medium term, it brings exactly the opposite. And here 
is why; I'll give you a focus on five issues why that is the 
case in most of the region.
    Now, as we have seen, the region is not unified and there 
are some bright spots and some places that are worse than 
others or are better than others. But by and large, 
aggregately, it doesn't look very good. And there are five 
reasons for why this isn't going like some people expected, I 
think unreasonably.
    First, when we say the public is empowered or the 
individual is empowered, it doesn't mean the public is unified. 
When you get empowerment of the people, you get empowerment of 
the religious and the secular, the Shia and the Sunni and the 
Muslim and the Christian and the rich and the poor, and now 
everybody wants the same thing; they all are vying for a piece 
of the pie in a changing polity where central authority is 
weakened and the rules of the games have changed. So the fact 
is it's a prescription for more competition and more conflict, 
even without sectarianism.
    We focus on sectarianism. Obviously, that's an easy one to 
focus on in places like Syria or Iraq, but Egypt doesn't have 
that kind of sectarianism. And yes, it has 10 percent 
Christians, and minorities tend to suffer more than others in 
these kinds of competitions, but the 90 percent of Egyptians 
who are Muslim are overwhelmingly Sunni, and yet look at the 
black-and-white divisions that have emerged. It was the zero-
sum game that if you're not our friend, you're our enemy. And 
they're all, by the way, religious. Over 90 percent of 
Egyptians say they're religious. So it's not even about 
religiosity, it's about the role of religion in politics and a 
power struggle, and those divides happen in society no matter 
what you have. And so the empowerment of the individual in the 
short term doesn't add up into stability, it adds up to exactly 
the opposite.
    Second, even when we say that the publics are empowered, 
publics are rarely the main factor in shaping politics. Even in 
democracies, we see that in our country, yes, publics matter in 
our electoral system, but we know the source of money and the 
source of corporations, and all the distribution of power is 
uneven in society. And so they're vying in a new system--to 
write new rules of the game against existing institutions. The 
bureaucracies haven't disappeared. The multinational 
corporations haven't disappeared. People with deep pockets 
haven't disappeared. The military institutions, above all, 
haven't disappeared, and they're all going to fight against 
this public empowerment to make sure that they have a piece of 
the pie in the new rules of the game that are being written.
    And if you look at that, you see for example in Egypt that 
particularly the military institution is very important. 
Frankly, in every single episode of the Arab uprisings, the 
military institution has been perhaps the most determined 
aspect of the game because when Ben Ali was ordered to leave, 
essentially it was a military decision in Tunisia. When Mubarak 
left, it was with the encouragement of the military. And when 
Assad didn't leave, it was because the military backed him. And 
when the king of Bahrain didn't acquiesce, it was because of 
the military--in every single case, the initial outcome of the 
uprisings and what transpired afterwards is a function of a 
military decision. We saw what happened in Egypt with the 
military asserting itself again in the process that is 
unfolding. In Tunisia, they haven't made that decision. Don't 
rule it out completely depending on what happens. It's 
militaries that will remain. It's critical to the outcome of 
every single uprising.
    The third point I want to make is that we all understand 
that when we look at the history of politics anywhere, not just 
in the Middle East, we understand that transitions are 
destabilizing and unpredictable. And it means that by and 
large, you have often emerging insecurity and economic 
deprivation that trump pluralism and democracy and work in 
favor of those who want to rule with an iron fist because you 
have people who are very terrified of anarchy, and people who 
are certainly very terrified of not having food for their 
children on the table. And that trumps everything else, 
including their toleration.
    By the way, I happened to meet with President Sisi in Egypt 
just before the election. And he said to me, I understand what 
my priorities are. I understand what the Egyptian people want 
me to do now. Number one, security. Number two, the economy. 
And he's frankly right. And that's how he sees it in setting up 
his priorities. Now, whether we agree with the way he's doing 
it or not is a separate question, but it's very clear that's 
the case.
    And by the way, this dynamic of the public being terrified 
of anarchy and economic deprivation in a way that trumps 
pluralism, democracy and human rights is one thing that other 
rulers in the region are using to terrify their publics against 
the expansion of the uprisings. One reason why the uprisings 
have stalled is that the Kingdom of Saudi Arabia would tell its 
people, do you want Damascus or do you want Riyadh? The King of 
Jordan can tell his people, do you want Aleppo or do you want 
Amman? And for now, no one wants Aleppo or Damascus or Tripoli, 
for that matter. And that's one of the things that is 
happening.
    Fourth, while each country in the region has specific 
conditions that have to be evaluated separately, it is fair to 
say that there are commonalities in the Arab world. Sometimes 
we don't understand the regional dynamics. Yes, we have to look 
at every country separately for sure. They are different. 
Tunisia and Egypt are different. But there is a regional 
dynamic that cannot be separated from the domestic dynamic. And 
let me give you just a couple of examples.
    In all of the polling, we see that there are common Arab 
aspirations as well as unique aspirations domestically. When we 
looked at the emergence of the uprisings starting in Tunisia 
and then expanded to the Arab world, they expanded across the 
Arab world but not into other countries and not even into other 
neighboring Muslim non-Arab countries because there is an Arab 
dynamic of aspiration. But more importantly, look at how the 
uprisings have been unfolding. In every single case, with the 
possible exception of Tunisia, in every single case you cannot 
understand what's happening without understanding the role of 
outside regional powers or, for that matter, global powers. 
Look at Syria: Saudi Arabia and Iran are in competition, all of 
the neighboring states, without the Saudi intervention in 
Bahrain. Even Egypt that we think of as autonomous with no 
military intervention, look at the tens of billions of dollars 
that are coming from the Gulf that are a very essential part of 
what might be likely to happen. So you can't divorce these two.
    One final point I want to make, Mr. Chairman, has to do 
with the one non-Arab state in the group, Israel. And I say 
that now, obviously, we're all facing what seems to be a 
horrific set of killings that we witnessed; ugly killings that 
make all of us sick and obviously generate hostilities that 
might erupt into a larger-scale conflict. But the aspect I want 
to talk about is more about pluralism and democracy and the 
threat to pluralism and democracy that has emerged with that 
conflict.
    Let me just very quickly focus on this issue. Israel within 
its 1967 borders has been a successful democracy. It has done a 
good job--not perfect, but a good job--as a democracy. Its 
relationship with the Palestinians in the occupied territories, 
in the West Bank and Gaza, has of course been rationalized by 
all of us as a temporary situation of occupation--which it is, 
theoretically, under legal law. And we all correctly focus our 
attention on getting a political settlement along the lines of 
a two-state solution to solve this problem.
    If people conclude that the two-state solution is no longer 
an option and we look at occupation as a semi-permanent 
situation, the relationship between Israel and the Palestinians 
will start looking differently and be evaluated in the context 
of one country, and that is going to be incredibly troubling 
for those who want equality and human rights--that's number 
one.
    Number two, the spillover effect of that into Israel's own 
Arab population, the 20 percent who are citizens of Israel who 
can vote and get elected, who have participated 
democratically--they're legally equal citizens in practice; 
obviously, they are second-class citizens, but by and large, 
Israel has a done a reasonably good job over the years to 
expand that. We are beginning to find now that if there is no 
two-state solution we're beginning to feel it now because a 
large majority of Israelis and large majority of Palestinians 
say there will never be a two-state solution in my own polling 
that I do there--with that, you find then that the Israelis who 
want a Jewish majority state start being fearful of the 
demographics. And when you're fearful of demographics, you 
start thinking Jew and Arab. And when you're thinking Jew and 
Arab, you're no longer thinking about Israel and Palestine; 
you're thinking domestically.
    And we see how that has played into the hands of extremists 
on both sides within Israel itself in a way that undermines its 
democracy and pluralism. So we really have to be watchful of 
these trends that are going to potentially have consequences 
far beyond just the conflict but also into the nature of 
democracy and pluralism in the region.
    Mr. Cardin. Thank you for that very thorough analysis.
    Ms. Abdelkarim.

ZEINAB ABDELKARIM, REGIONAL DIRECTOR FOR MIDDLE EAST AND NORTH 
     AFRICA, INTERNATIONAL FOUNDATION FOR ELECTORAL SYSTEMS

    Ms. Adbelkarim. Thank you, Mr. Chairman and members of the 
commission, for the opportunity to testify today. I appreciate 
the chance to share with you IFES' considerable experience and 
expertise in assessing the overall political, socioeconomic, 
security and other issues surrounding the region's democratic 
transition. I will begin with a brief symposium of IFES' work 
in order to contextualize my testimony. Then I will provide 
background information and context to key considerations I 
would like to share with you today for you to take in 
consideration when addressing issues of pluralism in the 
region. They mirror to greater extent what Dr. Telhami has 
already covered. And then I will conclude with a few remarks.
    Broadly speaking, IFES supports citizens' rights to 
participation in free and fair elections by strengthening 
electoral systems and by building local capacity to deliver 
sustainable solution for countries that seek to enhance their 
governance structure. We have been active in the Middle East 
and North Africa region for over two decades, advocating for 
societies where citizens have the opportunity to play an active 
role in making decisions that affect their lives and in holding 
their government accountable. Our approach empowers both the 
recognized local authorities as well as civil society by 
providing information and access to resources and training on 
democratic norms and international standards for election and 
political processes.
    Indeed, the overall situation throughout the Middle East 
and North America remains fragile and very pluralized. Newly 
formed governments and elected institutions continue to face 
firm resistance from their opponents and have not been 
successful thus far in ushering major reforms or managing the 
mistrust or the economic uncertainty and internal security 
issues.
    In deeply divided societies where ethnic, social, tribal 
and political affiliations are key considerations, it is 
imperative that the countries' transitions are managed in a 
manner that is inclusive and consultative and transparent. It 
is particularly important for citizens to perceive government 
affairs, legal reform processes and the country economic plans 
as open and transparent. The biggest danger is the growing 
tendency to reduce democratic practices to voting, 
constitutional drafting and electoral events.
    A new constitution or the presence of electoral processes 
does not necessarily mean that a democratic transition of 
transparency and accountability have taken root. This kind of 
development across the region cannot be considered evidence of 
a new social contract between the transitioning states and 
their citizens. At best, these developments could be described 
as constitutional engineering led by small but dominant elites. 
Understandably, undeveloped and disorganized political and 
civil forces, as well as nascent civil movement in places like 
Tunisia, Libya and Egypt, are unable to wield much influence on 
near-term outcomes of the transition in these countries.
    However, it is important to note that modern democratic 
practices evolve over centuries. It makes no sense to look for 
similarities in a remarkably different context, particularly so 
early in the game. Rather, it is best to let these political 
developments run their natural course. They are changes that 
are best measured in decades, not years. Each and every state 
will evolve in its own distinctive way and adapt to national, 
regional and global changes over time.
    We all can agree that analysis in the midst of the current 
event is never easy and the future itself remains clouded with 
uncertainty. However, as these events and their causes unfold, 
eight key issues and concern that cover a range of political, 
economic and social factors must be taken into consideration 
when addressing pluralism in the regions.
    And these are, first, a declining political legitimacy in 
authorities charged with overseeing the transition in a number 
of countries in the MENA region. The biggest challenge to 
democracies is their inability to provide services and 
effectively govern. Low public credibility can in some cases 
engender voter apathy, violence, ineffective governance and 
long-term political instability.
    Second, a breakdown in security, rising instability and an 
increase in both human and weapon trafficking across borders 
will continue to cause human suffering and burden local 
governments.
    Third, the lack of serious efforts to address continued 
economic meltdown and extreme poverty in some countries in the 
region does not bode well with stabilization or democratic 
development and could lead to more protests, insecurity if not 
addressed in the near term.
    Fourth, increased tension between Islamist, socialist, 
liberal and other political entities. The struggle over the 
constitutional drafting process in these countries is a prime 
example of growing divide between Islamist and liberal as they 
debate the inclusion of Sharia as the source of all 
legislation, the role of men and women, the rights of ethnic 
and religious minority, the criminalization of attacks against 
religion and sacred values. These debates have been the center 
of the political discussion across the region for decades and 
it's going to stay for some time.
    Fifth, the struggle for dominance in the Persian Gulf and 
the Levant remain unsolved. For decades there have been fierce 
competitions between the Salafist school of thought and Shiite 
Islamic Republic of Iran. Both sides have provided military and 
political backing to their allies across the region and it 
makes them an ineffective player in influencing the regional 
political transformation.
    Six, as Dr. Shibley has indicated, the Palestinian-Israeli 
conflict remains a destabilizing factor for the Arab world. And 
can I leave it at that? He covered it very extensively.
    Seven, the U.S. presence in the region faces a crisis in 
legitimacy where mistrust and suspicions are dominant features 
of the region--perceptions towards the U.S. involvement.
    Eighth, shrinking space for democracy-building program, 
which in part is due to the resistance to U.S. involvement. A 
growing number of governments across the region are starting to 
crack down on democracy-building programs and publicly denounce 
democracy assistance, describing it as illegitimate political 
meddling in internal affairs and clear attempt to subvert 
political order.
    Transition to democratic governance is neither fast nor 
easy, and the path to introducing and implementing democratic 
political reforms varies across countries. It is difficult to 
predict how long the transformation of the region will take and 
how far it will go. However, the regional upheaval is far from 
over and the highly motivated young generation who was on the 
forefront of the call for transformation will continue to 
challenge the present circumstances and guard the flame of 
change. And that's my conviction.
    To remain effective, the international community and groups 
that promote democracy must come to grips with these new trends 
and a complicated history of democracy promotion globally and 
genuinely rethink their strategies of engagement. The emphasis 
on democratic election, participation by civil society, 
empowerment of the marginalized and ethnic groups, and 
competition between political parties will not guarantee that 
the state will respond to its citizens' needs for social and 
political accountability.
    Undoubtedly there is a need to re-evaluate the way in which 
democracy is supported and sustained. The human security 
challenges facing the region today requires the promotion of a 
broader concept that includes tolerance, consensus and peace-
building processes, accountability, human rights protection, 
capacity building for social and economic development, 
promotion of public involvement and consultation, and 
improvement on the political and political processes.
    Disengaging or limiting democratic governance aid to the 
region at this juncture is a huge mistake. However, the 
international community should continue to leverage existing 
international frameworks, diplomacy and bilateral agreements to 
find ways to encourage democratic practices and a space for 
democracy-building programs. Efforts to plan future assistance 
have to take into consideration that democracy-building is 
highly political and not only a technical exercise.
    Better understanding of the local context and norms, local 
ownership and respect for viewpoints and experiences of the 
targeted populations are key principles that must guide the 
international community efforts. Any intervention can easily 
lose credibility if perceived by local populations as 
ineffective or tainted by intervening countries' political 
self-interest.
    With that, I conclude my remarks and I'm happy to answer 
any question you may have.
    Mr. Cardin. Well, let me thank all three of you. I thought 
your presentations were extremely helpful and put it in 
context. You're right, this is about political pluralism. And 
we're patient and we understand that it will not happen 
overnight. But it's very interesting: In 1975, when the 
Helsinki Accords were attained, it was not U.S. values. These 
were universal values. The Soviet Union fully participated in 
this process. So when you mentioned the fact of U.S. 
involvement in these areas of interest to our--to try to 
promote--or suspicion of promoting our values, it really is--
what we're after is universal values.
    Ms. Abdelkarim. True.
    Mr. Cardin. And the core principles of OSCE--and I have 
them in front of me because it's part of the Ukraine 
resolution--Russia resolution we adopted in Baku--talks about 
sovereign equality, refraining from the threat or use of force, 
the territorial integrity, peaceful settlements of disputes, 
noninterference in internal affairs, respect for human rights, 
et cetera.
    I mention that because when Ukraine--when Russia invaded 
Ukraine, it was OSCE that was on the ground. And it was a 
mechanism that allowed for, I think, an international, 
objective account of what was happening. And it provided the 
technical help that I think has been extremely helpful to 
Ukraine coming back and recognizing what it needs to do moving 
forward. In Northern Africa there is no comparable organization 
that I know of. Yes, we talk about the Partners for 
Cooperation, but that is--it doesn't have the same resources 
and the same visibility that a partner state has when it is 
jeopardized.
    Ambassador Taylor, I was very much interested in your 
analysis of the civil societies--Tunisia. I guess my question 
to the panelists is, what mechanisms are available to provide 
that type of universal view of what's going on in the country, 
not Western view but universal view that what a country needs 
to do for stability--I thought your analysis about the 
challenges to pluralism--that just because you empowered 
individuals does not mean you're going to have pluralism. In 
fact it, in the short term, looks like it works against 
pluralism because they want stability and they go for more 
effective leadership, which many times denies pluralism.
    So what type of institutions exist? What type of regional 
institutions or what type of societies exist in Northern Africa 
that we could work with, the OSCE partners, to try to promote 
understandable progress towards pluralism, knowing that it will 
not happen next year and that it will take time? Should it be 
civil societies? Is it different in each country? What is your 
thoughts on that?
    Mr. Taylor. When I look at the advantages/disadvantages of 
the Helsinki process in the Middle East, in comparison to 
Eastern Europe, we don't have the same kind of challenges. The 
information revolution wasn't there. And this created a whole 
opening for a whole set of people who might be linked to the 
outside world. We don't really have that in the Arab world. If 
anything, the Arabs now have probably more information than 
they can handle and, despite all of the attempts to close it. I 
mean, they've got tens of channels that are coming their way, 
and the Internet and everything else, and they just can't have 
information.
    So the question is, who are they going to look up to as a 
measure? And here is the positive thing about the Helsinki 
process: it isn't set up as an American process or a U.S. 
process, because obviously with all--for us as Americans we 
have a role to play for sure. I don't think that we should 
detach ourselves, but we should understand the limits of our 
ability because people have this sense that we're trying to 
dominate. And even when we intervene for really good 
humanitarian reasons, the next morning they'll say we did it 
for imperialist reasons, and if--somebody might try to use that 
against us and against those who are accepting aid from the 
U.S.
    The good thing about the Helsinki process is that it is set 
up as a universal values kind of process, and that should be 
the focal point of the approach. How you do that, whether it 
links up directly to groups, I think it could be, or whether it 
could use international institutions to create more visibility 
in terms of holding up societies to particular standards, not 
the secretary of state is saying you're not living up to our 
standards, but somebody else is saying you're not living up to 
the international standards, I think that's the approach.
    But here is the problem with civil society groups--and 
we've seen that in Egypt, we see it up to a point in Tunisia, 
but we see it elsewhere--they can easily be delegitimized 
because of linkages to the outside world. And that's usually 
the kind of the fine line that you have to figure out: How do 
you help them without de-legitimizing them? And I'm not sure I 
have a good answer for that.
    Mr. Cardin. Well, is the Tunisia--is the Tunisia model the 
right model? Does that work in other countries or is that 
unique to Tunisia?
    Mr. Taylor. Mr. Chairman, I think Ms. Abdelkarim made a 
very good point. That is, local context is really, really 
important in each of these areas. I think the answer to your 
question about Tunisia is that there--Tunisia's civil society 
has pulled together into an organization and to an institution 
of some informal sort. And it was the lead union, the largest 
union in the country. It was a similar association of 
employers. It was the bar, so the lawyers that got together and 
then the legal human rights defenders. And that group----
    Mr. Cardin. But did those groups have contacts outside of 
Tunisia?
    Mr. Taylor. To a small degree I think so, but that was not 
what was going on. They were really internally generated. The 
Tunisians did this, Tunisian civil society. Those four 
organizations, they had legitimacy and this large public 
service--this large union that was across the country 
mobilizing more than any political party. Its members went 
across the country and were able to really provide the 
political muscle. But it drew in these others and drew in the 
employers. It drew in the lawyers and the human rights 
defenders. So that gave it a real breadth and strength to do 
this. But, Mr. Chairman, I think it really was Tunisian. And we 
can help them with caveats that she just mentioned about 
delegitimizing. They didn't ask for any outside support and 
they didn't need it. They did it themselves on this thing.
    Just while--I'll mention, your point about institutions 
that can help countries in Northern Africa, in the Middle East, 
is a very important one. The Helsinki Commission is a great 
example of how Eastern Europeans--and you mentioned the 
excellent work it's been doing in Ukraine--East European and 
Central European countries had OSCE, Helsinki. They could hold 
the Russians to those standards that the Russians had signed up 
to, but they also had the EU, with its own set of standards, 
both economic and political, human rights, that they wanted to 
join, that they wanted to measure up to, and in order to join 
they had to meet those standards.
    Many of them wanted to join NATO and did, because they 
still had security concerns. It turns out they had legitimate 
security concerns, and that others would like to join NATO at 
this point. We're seeing that. But in the Middle East and in 
North Africa we don't have those same kinds of attractive 
institutions that they can kind of lean toward.
    Mr. Cardin. Good point.
    Ms. Abdelkarim. I would like to add, I agree with 
Ambassador Taylor that Tunis didn't have the same restriction 
on civil society when it comes to, receiving foreign funding. 
Looking at other places in the region, such as, Egypt and 
Jordan, the restrictions that are put on the implementations of 
these programs and their finances and even the attendance of 
events by local actors is huge and is actually going to impact, 
in the long run, the effectiveness of these programs. Civil 
society enjoys completely different status in Tunis than other 
places in the region.
    And I also agree that we don't have a regional institution. 
The Arab League is very weak. Yes, it has the charters on human 
rights and economic and free trade and so forth, but it's not a 
strong institution to bring the region together. So definitely 
looking for the international community is where most of the 
assistance is actually--could be coming from.
    Mr. Cardin. I would make this--as I said, we're patient. We 
recognize it's going to take time, and they do not have the 
same institutional support that Europe has. There's no question 
about that.
    I think the two points--or three points that you raised 
concerning constitutional reform and electoral reform are 
critically important that we see progress made. I would add a 
third, which would be fighting corruption, which sort of--this 
goes through all of this. I mean, we saw in Ukraine that it was 
more about a corrupt government than it was a pro-Russian 
government or a pro-Europe government that the people brought 
down.
    And I think the people have strong desires for a government 
that is not corrupt, and that can bring down even the most--and 
also, you got to make economic progress, and without ridding 
your country of corruption, it's hard to make the economic 
progress which is necessary for pluralism and democracy to 
flourish.
    So as I look at this, how do we judge whether sufficient 
progress has been made in these countries so that we reward 
that, whether it's trade agreements or whether it is a 
strategic partnership for security? We've had a mixed relation 
with Egypt in recent times. How do we judge whether these 
countries have made real progress on constitutional reform, 
anti-corruption, electoral reform?
    Ms. Abdelkarim. They made some reform and progress, but not 
enough. It's just the first step. And it's going to evolve over 
time. And as I mentioned, we're waiting for the legislative 
bodies to be elected, the long-lasting ones, to see whether or 
not the elected representatives will continue to push for the 
necessary reforms.
    Just from looking at my 10 years of working in the region, 
electoral process and the support that we've been providing to 
multiple countries, including Jordan, Yemen and Egypt, things 
have evolved tremendously over the years. Reforms have been 
made, and gaps in laws and legal frameworks have been 
addressed. But they're just the first step, and a lot more need 
to be done. So----
    Mr. Telhami. Yeah. Well, with constitutions, obviously 
there are some things that are clear pertaining to rights and 
defining the state. But frankly, it's all about how you 
implement it and interpret it. We know that for sure--and we 
see it in Egypt because right now----
    Mr. Cardin. China has constitutional reform, but it doesn't 
work very well.
    Mr. Telhami. Yeah, and when you also--I mean, look at what 
are our issues of good intention with Egypt, particularly when 
we talk about human rights and pluralism--it's not just the 
action that we're taking vis-a-vis the Muslim Brotherhood, but 
you can see these court rulings. And then when you ask the 
Egyptians and say, as I did ask Sisi, how do you explain how 
this takes place, he says, well, there's a separation of 
powers. Well, of course that's true in some ways 
constitutionally, you want a separation of powers, but you want 
those powers to be responsible, behaving responsibly. How do 
you reform the judiciary? How do you reform the Interior 
Ministry, separate from what the rules of the games are, 
because these institutions have legacies? These are what people 
call the deep state.
    And it's a very hard thing to do because as you're trying 
to govern and you are focused on specific issues like security 
and the economy, and you take on these power centers that are 
entrenched at a time when people don't want you to be an 
authority leader that actually intrudes other powers--not an 
easy issue to do. But we need to watch for that. We need to 
push for that.
    As Ambassador Taylor said, no matter what our capacity is, 
we need to speak with clarity. And I think we speak with 
clarity even more when we are appealing to universal values, 
not to what we like as American foreign policy. We have that 
moral authority. Handcuffing the U.S. particularly as a player 
is not simply the fact that people have this mixed view of us--
on the one hand, they don't trust what we do, on the other 
hand, they want us to intervene--but more than that is that 
let's be frank, human rights and democracy, we all want it. Our 
presidents want it. Our Congress wants it. The American people 
want it. But we want security and strategic interests even 
more.
    And so our relationship with the Egyptian government, for 
example, is above all about the military-to-military 
relationship, the strategic cooperation now vis-a-vis Gaza or 
vis-a-vis something else, and those issues don't always go hand 
in hand. So we have limitations that therefore again speak to 
going outside that process, to finding some other mechanism 
too.
    One final point on Tunisia, because I think we've focused 
on Tunisia as a success case, and I think it is. Tunisians 
should be applauded, I think, commended for moving in a right 
direction, and I'm hopeful that they will get here, although 
it's unclear still. It's an unsettled situation--if you look at 
it, you have to understand that we're still in the beginning of 
the process, not the end of the process.
    But I happen to think that we underestimated two factors in 
why they've moved in this direction, beyond their unique 
domestic situation or civil society or groups. One factor is 
actually, they were frightened by what happened in Egypt. And 
so the fact that the Muslim Brotherhood was overthrown scared 
them and made the Islamists far more conciliatory in the final 
process as they moved in the constitutional process. So they 
learned from what happened.
    But the second thing is I think historical accident, and 
it's not having to do with an institution. Rashid al-Ghannushi, 
who happens to be an exceptionally astute leader of the 
Islamists, and not only because of the particular values of his 
philosophy, but because he understood one thing that I think 
the Muslim Brotherhood in Egypt didn't understand. He said that 
when you have a mature democracy like the United States, it's 
enough for a president to win half plus one, 50 percent plus 
one; that's enough. When you're in a transitional period or the 
like that we are in, it's not enough; you need a consensus to 
be able to sustain minimum stability. And I think that is a 
unique understanding.
    That's why I think we also have to pick our allies pretty 
carefully. We see what we've done in various places where we 
were choosing allies based on expediency, not necessarily ones 
that are going to take us on the right path.
    Mr. Taylor. Mr. Chairman, the only thing I'd add is to your 
question about how to measure our response in these areas, in--
it's--Tunisia is one case, and Egypt's another. Tunisia is a 
pretty straightforward answer. It's apparently doing the right 
thing, at least as we're looking at it now. It's fragile, as 
Shibley says, but it is clearly going in the right direction on 
these areas that we've talked about. So we should respond, in 
ways that we can, whether it's trade or whether it's 
international financial support, direct support to the [?]--we 
should respond in that way.
    Egypt is more complicated because they're not going in the 
right direction on political pluralism, and the repression is 
pushing them backwards and is probably destabilizing them, but 
they are important to us in some security ways. I'm less 
convinced about the importance of overflight rights and access 
to the canal and that kind of business, but the concern about 
ISIS or the Islamic State in Iraq and Syria, is a real concern. 
I don't know how big yet because it's not clear to me how much 
traction ISIS is going to have with its declaration of a 
caliphate, even among extremist Muslim organizations, much less 
the broad body of Muslim people. But that's important to us, 
and they will be able to play a role.
    They did play a role in Gaza, but it was under President 
Morsi that they played this positive role. And it's not clear 
yet if they're going to be able to play that positive role.
    Mr. Cardin. That's very helpful.
    Congressman Hastings.
    Mr. Hastings. Thank you very much, Mr. Chairman.
    I am grateful to all three of you and your presentations. 
They are illuminating. Regrettably, not enough of our 
colleagues in the Senate or the House are privy to the same 
kind of information with regularity.
    Mine is more of an observation, I think, at this point than 
any questioning of either of you. Obviously, you all know your 
subjects, and you've studied them very carefully.
    I think the takeaway for me is summed up in the senator's 
question about how do we measure and Ms. Abdelkarim's sentence 
in her closing remarks. Any intervention can easily lose 
credibility if perceived by the local population as ineffective 
or tainted by the intervening country's political self-
interests. And then Mr. Telhami speaks to all of that at some 
point in his presentation.
    And what I find interesting is I don't see how our country 
can help without having a self-interest, period. And then there 
are those that do not get accused as the United States does and 
manage successfully in many of these areas of conflict. I've 
always had a complete fascination with how the Dutch go in and 
out of Africa and get the diamonds, and they don't care who's 
fighting, but they've managed, somehow or another, to do that.
    And what I'm finding fascinating in the last 20 years is 
China's hands-off approach to many of the issues that other 
countries are, Russia and the United States especially, 
involved in proxy activities in other areas. And China swoops 
in after all of the conflict, and let me use Iraq as an 
example. I don't know how long it will last with the current 
developments, but if we were talking two years ago, then China 
had the lead number of contracts in oil in Iraq and did not 
lose a soul. The persons who are doing most of the mining in 
Afghanistan today are the Chinese, and there is no plan, it 
doesn't seem, for the United States to benefit after having 
lost life and treasure.
    So as one who has a continuing interest in this area--and I 
do serve as the co-chair of the Tunisia caucus, and I've been 
involved in all of these other countries with regularity and 
intend to stay so. Let me just sum up by saying this: There is 
an inseparable triumvirate of inadequate jobs, inadequate 
housing and inadequate educational opportunity. Looked at in 
the long range, the best thing that we could do as a country, 
for ourselves and for the world, is to encourage intercultural 
and educational exchanges--and I think, Ambassador Taylor, you 
spoke to some of that in your remarks--and to make special 
emphasis of education on small children, small meaning pre-K, 
and helping in that regard.
    I believe that's where the greatest emphasis is needed. I 
don't see any real immediate solutions to any of these ongoing 
conflicts. I think America has been very naive in thinking that 
democracy can be implanted in a lot of places, and I've 
expressed that often. I feel very strongly that one of the 
things that happens--and I've seen it here in my own country, 
and I've been a part of it. As an African-American here in this 
country, one thing I can say is government does things to 
people. I'm talking the United States government, not outside 
the government. I'm talking in Altamonte Springs, Florida, and 
the places where I've lived--does things to people rather than 
with people. And therein lays a part of the problem. And then 
when you are going abroad and start doing it, you have to know 
who the people are you're doing it with. And that has been a 
continuing sort of travail.
    I've asked in this institution, and I continue to ask, that 
at the very least, we should have experts come in. I asked 
Gingrich and Gephardt. I asked Pelosi and Hastert. I haven't 
done so recently, but as early as 1992, and way before the 
ongoing circumstances, I said if we are going to be in these 
conflicts, then we at least ought to know the difference 
between a Sunni and a Shiite. We ought to at least know what a 
Pashtun is, what some cultural aspects are. And we don't. You 
couldn't get--we could go out here right now and find--I can 
find you 300 congresspeople that don't know that there are 
Christians in Iraq, or just as--for example, they may know a 
little bit about a few Christians in Egypt, but they don't have 
any idea about what's going on, and yet we make these 
interventions, and we make these policies without having a 
clear understanding.
    That's my story, and I'm sticking to it.
    Mr. Cardin. Well, thank you, Congressman Hastings.
    And let me thank all three of our panelists. I agree with 
Congressman Hastings. This has been extremely helpful to us to 
get a better understanding. We're Americans, and we're 
impatient by definition, so we also--I think it just does 
underpin the merits of the OSCE process from the beginning. It 
was nonthreatening to a participating state because it's 
consensus, that you can't force anything upon--there's no 
enforcement within the OSCE framework. And look at the impact 
it's had in developing universal values.
    And the reality that if you're going to have a stable 
country, people have to have an economy that allows them 
opportunity--you can talk about--all about the--all the 
military presence, but if you don't have an economy that 
produces, you're not going to have a stable regime. And we've 
seen that over and over again in the Middle East because of 
that issue. And yes, people do want their individual rights 
heard. They do want the electoral process. But that's part--
that in and of itself doesn't produce democracy. And I think--
and pluralism.
    So I think this has been extremely helpful for us, as 
Congressman Hastings said, to get a better understanding and 
reality of what the challenges are, and we certainly will be 
following up on this.
    So again, thank you all very much for your testimony.
                            A P P E N D I X

=======================================================================

                          Prepared Statements

  Prepared Statement of Hon. Benjamin Cardin, Chairman, Commission on 
                   Security and Cooperation In Europe

    Ladies and gentlemen, distinguished witnesses and guests, I wish to 
welcome you to this Helsinki Commission hearing on ``Political 
Pluralism in the OSCE Mediterranean Partners?'' The Helsinki Commission 
has long prioritized engagement with our Organization for Security and 
Cooperation in Europe (OSCE) Partners for Cooperation in both the 
Mediterranean and Asia. I have seen the potential for the Helsinki 
Process as a model for both partner regions and I have led Commission 
efforts over the years on this concept. Our Commissioners, including 
Representative Alcee Hastings as OSCE Parliamentary Assembly (OSCE PA) 
Special Representative on Mediterranean Affairs, have led efforts in 
the OSCE PA to promote the interests of our Mediterranean Partners and 
forge a meaningful exchange for mutual learning; not just one-sided 
engagement in the region by external actors.
    We could say that the political transitions resulting from popular 
uprisings at the end of 2010 have changed the face of OSCE engagement 
with the region. These years since have brought successes with some 
structural reforms and challenges in the development of viable 
political parties and electoral systems. Our Partners, Algeria, Egypt, 
Israel, Jordan, Morocco and Tunisia, have had very different 
experiences based on their different political systems. I see this 
hearing as a timely opportunity to explore common elements of 
transition among these countries and revisit how best to foster 
cooperation through OSCE mechanisms. As exemplified by the deployment 
of OSCE resources and expertise to manage the crisis in Ukraine, the 
OSCE remains a functional tool for fostering human security and a 
potential model for advancing common human security in the 
Mediterranean.
    The Helsinki Commission last convened a hearing taking stock of 
political developments and overall engagement with all of our OSCE 
Mediterranean Partners for Cooperation in 2009. That year, I worked 
with Representative Hastings to convene a hearing on ``The Future of 
the OSCE Mediterranean Partners for Cooperation'' coupled with an 
international seminar of parliamentarians from throughout the region 
exploring Mediterranean Partner engagement. This event recommended 
functional partnership initiatives with our Mediterranean Partners 
including projects for youth exchange and broader accessibility of OSCE 
initiatives for participants from the region. Our efforts also 
identified priorities for more leadership of the Mediterranean 
Partnership from the region, which has become particularly relevant 
with the emerging empowerment of long disenfranchised voices of 
political opposition. Those voices have been both productive and 
disconcerting. Yet, the establishment of impartial electoral systems 
will lead the region to responsive governments that address the 
motivations of those who took to the streets.
    The OSCE and its Parliamentary Assembly have been able to generate 
unique opportunities for assistance in this new era of regional 
cooperation. For example, the OSCE PA was able to deploy an observation 
and assistance mission for the October 2011 elections to the Tunisian 
Constituent National Assembly. The OSCE has been able to facilitate 
exchanges with young diplomats from the region to serve in the OSCE 
secretariat. Additionally, key materials from thematic units of the 
OSCE and the Office of Democratic Institutions and Human Rights have 
been translated into Arabic. Civil society and experts from the region 
have become increasingly active in OSCE events and dialogue 
opportunities coupled with expert visits from OSCE institutions to 
advise governments as they review their structural reforms. All of 
these activities have been possible through the OSCE Partnership Fund 
of extra-budgetary contributions from participating States and 
Partners. These activities truly demonstrate the depth of a 
relationship stemming back to the Helsinki Final Act of 1975 and 
leading into the future.
    Our first panel features Deputy Assistant Secretary of State for 
Near Eastern Affairs for Egypt and the Maghreb Bill Roebuck. A 
distinguished career Foreign Service officer with experience throughout 
the region, including service at pivotal times as Charged' Affaires to 
Tripoli, as well as Head of the Political Section/Acting Deputy Chief 
of Mission in Damascus. We look forward to hearing your perspectives on 
strategic investments through the OSCE, international partnerships and 
other initiatives like the U.S.-Middle East Partnership Initiative 
(MEPI) to address political reforms in the region.
    Our second panel will feature a broad cross-section of expertise on 
the region starting with Ambassador Bill Taylor, Vice President for 
Middle East and Africa of the United States Institute of Peace. 
Ambassador Taylor most recently served as State Department Special 
Coordinator for Middle East Transitions coordinating support to Egypt, 
Tunisia, Libya and Syria following a distinguished career at State and 
work in the region. He will be followed by Dr. Shibley Telhami, Anwar 
Sadat Professor for Peace and Development at the University of Maryland 
and Brookings Institution Fellow. Dr. Telhami has made pivotal 
contributions to Arab-Israeli Peace Process negotiations and is an 
expert on public opinion trends in our countries of interest today. Our 
expert panel will be concluded by Ms. Zeinab Abdelkarim, Regional 
Director for the Middle East and North Africa at the International 
Foundation for Electoral Systems. Her expertise in electoral assistance 
will help us characterize the state of reforms in the political 
processes throughout our countries of interest.
    I see this hearing as an opportunity to examine not only the OSCE's 
development of institutional cooperation, but also the role of 
international actors and civil society in fostering political systems 
that respond to the needs of the region. As noted in the Helsinki Final 
Act, the security of Europe is closely linked with security in the 
Mediterranean as a whole. We look to our panels now for their thoughts 
on the development of political pluralism in the Mediterranean in 
recognition of our common security interests. Thank you for taking the 
time to join us.
 Prepared Statement of Hon. Alcee Hastings, Comissioner, Commission on 
                   Security and Cooperation in Europe

    Distinguished guests, I also wish to welcome you and I thank my 
friend Chairman Cardin for convening this U.S. Helsinki Commission 
hearing on ``Political Pluralism in the OSCE Mediterranean Partners?'' 
During my service as OSCE Parliamentary Assembly (OSCE PA) Special 
Representative on Mediterranean Affairs, I spent a number of years 
traveling among all of our Mediterranean Partners on behalf of several 
different OSCE PA presidents. Even before the Arab Awakening, I sought 
to empower the voices of the disenchanted in the region and press those 
who were in power to let pluralism flourish. From Rabat to Cairo, 
Algiers to Amman, I observed a common thirst for meaningful civic 
engagement. The popular uprisings since the end of 2010 have shown the 
need for capacity development among the youthful population of the 
region and made engagement with the OSCE more functional than it has 
ever been.
    I worked in 2009 to convene parliamentarians and experts from 
throughout the Partners in Washington for a seminar to reinvigorate 
what had been a diminishing partnership. This seminar yielded key 
recommendations that prompted efforts to add value to the partnership. 
This event also encouraged greater ownership of affiliated projects and 
initiatives by our friends from Partner States, so that our collective 
efforts would be meaningful to them. That same year was the last time 
that the OSCE convened its annual Mediterranean Conference in a Partner 
State. Political turmoil, instability and a lack of support for 
Israel's contribution to the partnership has kept some Partners from 
taking a leadership role in bringing the conference back to the 
Southern shore of the Mediterranean. We must change that. We must show 
that meaningful exchange will only come from dialogue of equally 
invested partners.
    Mediterranean Partner States are beginning to come to the table and 
invest in the OSCE Partnership Fund. Morocco and Tunisia have even 
requested legal reviews for their structural reforms from the OSCE 
Office of Democratic Institutions and Human Rights (ODIHR). As I had 
recommended for years, investments are underway for youth exchanges and 
greater contributions from civil society in the region to OSCE events. 
I applaud these efforts and especially look to our expert panel to 
remark on how we can do better; acknowledging the demographic trends 
and political realities.
    I would be remiss not to mention the violent conflicts in Iraq and 
Syria, which have displaced millions and vastly changed the political 
landscape of the region. We are on a dark trajectory if we do not 
strategically invest in positive civic engagement and much needed 
educational resources for those vulnerable populations. As I have said, 
time and time again, if we do not engage those populations, we will see 
them again in another form. And their demands will not be met through 
peaceful political channels.
    I look forward to thoughts from our panelists on the role of the 
United States and the international community in affirming the 
aspirations of those who took to the streets demanding responsive 
government and basic civil liberties. Thank you for sharing your 
expertise with us.
 Prepared Statement of William Roebuck, Deputy Assistant Secretary for 
             Egypt and Maghreb Affairs, Department of State

    Thank you, Chairman Cardin and Co-Chairman Smith, for inviting me 
to testify before you today on North Africa. It is a particular honor 
for me to do so before the U.S. Helsinki Commission. Morocco, Tunisia, 
Algeria, and Egypt, of course, all participate in the Organization for 
Security and Cooperation in Europe (OSCE) Mediterranean Partners for 
Cooperation forum, which provides an avenue for engagement with the 
OSCE, its institutions, and its 57 participating States in promoting a 
vision of comprehensive security that includes political/military, 
economic and environmental, and human dimensions. We welcome 
initiatives, such as this one, that make important contributions to 
promoting democratic transitions and bolstering regional stability.
    Mr. Chairman, as you know, North Africa--Morocco, Algeria, Tunisia, 
Libya, and Egypt--is a region of tremendous potential. The birthplace 
of the Arab Awakening, it is currently undergoing a difficult but 
critical transformation, the likes of which it has not experienced 
since the beginning of decolonization. Tunisia has achieved much 
success already and continues to realize the democratic promise of its 
2011 revolution, even as it faces significant security and economic 
challenges. Libya faces many difficulties and we must take the long 
view in assessing its progress toward democracy. However, Libyans are 
committed to making progress. For the second time since its revolution, 
Libyans across the country went to the polls in June and voted in free 
and fair parliamentary elections, selecting members for a new Council 
of Representatives. Morocco and Algeria are also undergoing reform 
processes that will benefit their economies and societies at home and 
increase stability in the region as a whole. Finally, our longstanding 
relationship with Egypt and its centrality to the region as a whole, 
require our commitment to democratic development in that country. These 
are historic times in North Africa and the U.S. government is working 
with our partners to assist and support during this transition.
Tunisia
    Tunisia remains one of the Middle East and North Africa's best 
hopes for a successful transition to democracy and has made positive 
strides in the past few months--with the ratification of a new 
constitution and swearing in of an independent government to lead the 
country to elections in 2014. On January 26 of this year, the National 
Constituent Assembly (NCA) ratified the constitution by a landslide 
vote of 200 for, 12 against, and four abstentions. The new constitution 
enshrines democratic principles such as rule of law, pluralism, gender 
equality, and freedom of belief.
    As with all transitions, of course, there are also challenges. 
Tunisia's economy has struggled since the 2011 revolution in the face 
of political uncertainty and security incidents. The Tunisian 
government has an ongoing commitment to reform its economy, aided by an 
IMF Stand-By Arrangement. Through this reform program, Tunisia is 
taking steps to address the vulnerabilities in its banking sector, 
reorient its budget toward a more pro-growth composition, and implement 
a comprehensive structural reform agenda to promote private sector 
development. As announced by President Obama in April, the United 
States and Tunisia signed a loan guarantee agreement in June allowing 
Tunisia to borrow up to $500 million at concessionary rates to support 
this reform agenda.
    Security remains vital to the success of the transition. However, 
violent extremists pose an ongoing threat as they seek to counter the 
democratic transition, thwart the government's authority, and impose 
their extremist understanding of Islam through harassment, incitement 
of violence, and attacks. Yet over the past year the Tunisian 
government has shown an increasingly strong resolve to manage the 
extremist threat. The Tunisian military and security forces require 
additional training and equipment to counter the newly-evolving 
terrorist threat. To do so, we have bolstered our assistance to help 
Tunisia reform its criminal justice sector to improve its ability to 
protect Tunisians and foreigners alike, as well as confront domestic 
and regional security challenges. We are also working with Tunisia to 
explore ways to provide at-risk groups with alternatives and prevent 
further marginalization or disconnection of these groups.
    We continue to provide assistance through a number of mechanisms to 
support Tunisia's transition to a prosperous democratic country, to 
spur job creation, to provide entrepreneurship training, and to enhance 
access to finance for small and medium enterprises, and support the 
democratic transition. We are also working with Tunisian civil society 
to ensure a transparent electoral process by supporting domestic 
election monitoring, and we will be supporting international election 
observation of the upcoming parliamentary and presidential elections.
Libya
    Since the 2011 revolution, Libya has faced significant political 
and security challenges. Yet it remains in our national security 
interest to ensure Libya becomes a stable and democratic partner 
capable of addressing regional security challenges and advancing our 
shared interests. Despite the challenges, the Libyan people are 
committed to making progress. On June 25, Libya successfully held 
nationwide elections for the Council of Representatives (COR), a 200-
member legislative body that will replace the General National 
Congress. Although turnout was lower than in 2012, COR elections 
represent for many Libyans a new beginning and important milestone for 
the country as it transitions to democracy. We expect the official 
results of these elections by July 20 and are ready to assist the new 
parliamentarians as they assume their duties, as requested. 
Furthermore, the Constitutional Drafting Assembly (CDA), a 60-member 
body tasked with drafting a permanent constitution, has begun its work 
in Bayda in eastern Libya after being elected in February.
    Yet while the government is making progress toward democracy and 
legitimacy, it lacks the ability to project its authority across the 
country or fulfill many core government functions. Further complicating 
efforts to achieve national consensus is retired General Khalifa 
Hifter's recent campaign to eradicate Islamist-leaning militants from 
Benghazi. Although many Libyans support his goals, they are wary of his 
methods and future intentions. We continue to affirm that a political 
agreement--and not violence--is necessary to advance the transition and 
enable the constitution drafting process to unfold. Accomplishing this 
will require buy-in from a wide range of Libyans. At the request of the 
Secretary, Ambassador David Satterfield is working in his personal 
capacity to build consensus among key Libyan influencers around a set 
of 10 principles that will guide the way forward. His efforts, along 
with those of the international community, are essential to helping 
Libya move past its current challenges.
    After 42 years of dictatorship, Libya suffers from instability and 
poor governance due to weak institutions, porous borders, huge 
stockpiles of loose conventional weapons, and the presence of militias. 
Some of these militias have extremist ties and continue to wield local 
and regional power, including blocking for over a year production and 
exports at many of Libya's onshore oil and gas facilities. However, we 
are beginning to see progress on this front and on July 1, Prime 
Minister Al Thinnai announced that militias controlling two ports in 
eastern Libya (Ras Lanuf and Es-Sidr) agreed to cease these 
disruptions, which has the potential to increase Libya's oil export 
potential by 560,000 barrels per day.
    Libyans have grown weary of the pervasive lack of security in their 
country and have become impatient with their leaders' inability to 
restore stability. Elected officials, including the Prime Minister, 
have stated security is their top priority and we are working with the 
government to improve its ability to establish stability throughout the 
country. At the UK-hosted G-8 Summit in June 2013, we pledged to train 
a 5,000-8,000 member General Purpose Forces (GPF), prompting the UK and 
Italy to pledge to train 2,000 members each. The GPF assistance will be 
paid for by the Libyan government, and we are continuing to plan for 
this effort, which will take place later this year.
    Border security is also a critical concern to the U.S. and our 
international partners in Libya. Libya's porous borders permit the flow 
not only of destabilizing Qadhafi-era conventional weapons, but also 
violent extremists throughout North Africa, the Middle East, and the 
Sahel. We are in the process of re-scoping a border security program in 
coordination with the European Union Integrated Border Assistance 
Mission (EUBAM) to provide technical expertise, training, and limited 
equipment to build Libya's inter-ministerial border security capacity 
to address security along its western land border. We will also 
continue to work with international partners and allies to support a 
broad range of activities to help the Government of Libya in securing 
excess, at-risk, or easily proliferated conventional weapons.
    Although Libya has great national resources, it has weak 
institutions, and requires targeted support now to develop the 
structures necessary to fund its own development. Alongside the 
international community, we are working with the Libyan government to 
build institutional public financial management capacity.
Morocco
    We continue to enjoy a very strong bilateral relationship with 
Morocco, focused on promoting regional stability, supporting democratic 
reform efforts, countering violent extremism, and strengthening trade 
and cultural ties. Morocco--a major non-NATO ally since 2004--is one of 
our closest counterterrorism partners in the region, and an active 
member of the Global Counterterrorism Forum. We also enjoy a strong 
economic relationship; a bilateral free trade agreement entered into 
force in 2006 that has helped triple bilateral trade, and in November 
2013 we signed a Trade Facilitation Agreement.
    President Obama hosted King Mohammed VI of Morocco in Washington on 
November 22, 2013, underscoring the long-term cooperation and 
friendship between our two countries. On this occasion we reaffirmed 
our close strategic partnership with Morocco and discussed the best 
means of promoting security and prosperity in the region.
    Under King Mohammed VI, the Moroccan political system has gradually 
liberalized; the King founded the Arab world's first truth and 
reconciliation commission--to investigate abuses that occurred during 
his father's reign--and expanded women's rights. A new constitution was 
adopted in 2011, and Morocco's first Islamist-led government won 
nationwide democratic elections, but much progress remains to be made 
on implementing the guarantees and reforming institutions.
    We will continue to support Morocco as it undertakes these 
important reform efforts. Our bilateral assistance focuses on promoting 
economic, political, democratic and social reforms; deepening our 
security partnership; promoting export control and countering violent 
extremism efforts; developing a professional criminal justice system; 
and encouraging broad-based economic growth. Our flagship assistance 
program has been Morocco's $698 million Millennium Challenge 
Corporation (MCC) compact, which closed in September 2013 and focused 
on agriculture, fisheries, and small business development. Morocco was 
selected as eligible to develop a second compact by MCC's Board of 
Directors in 2012 and is in the project definition phase of program 
development. With regards to the Western Sahara, we support the United 
Nations-led process designed to bring about a peaceful, sustainable, 
and mutually-acceptable solution to the Western Sahara question. We 
also support the work of the UN Secretary-General's Personal Envoy for 
the Western Sahara, Ambassador Christopher Ross, and urge the parties 
to work toward a resolution.
Algeria
    Algeria and the United States have built a strong bilateral 
relationship, characterized by our shared interests to combat terrorism 
and facilitate greater stability in the region.
    Algeria has made progress on human rights and political 
transparency over the past 20 years. We are encouraging the government 
to create space for a more vibrant civil society and inclusive 
democratic process through supporting small civil society initiatives, 
such as funding training for local election monitors. We also aim to 
increase educational exchanges with young Algerians, including 
promoting English language learning.
    The wealth from Algeria's significant hydrocarbon reserves has 
empowered the state at the expense of overall economic development. We 
continue to encourage Algeria to make market oriented changes that 
expand job opportunities and increase its attractiveness to foreign 
direct investment. With that in mind, we are working to strengthen our 
trade relationship with Algeria, and are seeking to reactivate the 2001 
Trade and Investment Framework Agreement. In 2013, General Electric 
signed deals worth $3 billion to provide gas turbines to Algeria, an 
example of the benefits of our efforts to promote U.S. business in 
Algeria. This will help create or sustain 4,000 American jobs.
    We have encouraged Algeria to continue to expand its regional 
leadership role to help stabilize neighboring states. Algeria's 
experience fighting an Islamist insurgency during the 1990s resulted in 
a well-equipped and battle-hardened military that constitutes the 
strongest counterterrorism force in the region. We appreciate the work 
that Algeria has done with Tunisia to combat smuggling and terrorism, 
and we will continue to encourage Algeria to use their expertise to 
train and partner with less experienced militaries and law enforcement 
units in the region to help ensure greater stability in the Sahel and 
Maghreb.
Egypt
    Egypt has undergone dizzying changes in the last three years. While 
its path forward is still being charted, its current trajectory has 
raised legitimate concerns about the future of democracy and human 
rights in Egypt. Egypt is also facing dramatic economic challenges as 
it moves to address unemployment, diversify and strengthen its economy, 
rebuild its tourist sector, and attract investment. We want Egypt to 
become a stable, prosperous, democratic country. While changes in Egypt 
have been shaped by internal dynamics, we recognize that these changes 
have broader implications for the region. Egypt is the most populous 
Arab nation--representing a quarter of the Arab world--and remains a 
bellwether for political and social trends across the Middle East and 
North Africa.
    Egypt also remains a critical partner of the United States as we 
pursue our national security interests in the region and globally. We 
share several crucial interests, including countering the transnational 
threats of terrorism and weapons trafficking and maintaining regional 
stability on several fronts, foremost among them peace with Israel. 
Egypt is supportive of these interests and we believe a stable, 
prosperous, and democratic Egypt will make the strongest and most 
effective partner.
    We remain deeply concerned about the state of human rights and 
political freedoms in Egypt, particularly the imprisonment of 
journalists and democracy activists, the lack of individualized justice 
and mass death sentences, and the enforcement of a harsh demonstrations 
law that is being used to close off space for dissent. These tactics 
are troubling: they reflect a profound lack of due process and 
complicate the achievement of political reform. Such tactics are at 
odds with the demands of the Egyptian people for justice; they further 
polarize Egyptian society and radicalize those whom they exclude from 
the political environment.
    Secretary Kerry made these views clear during his visit last month 
when he emphasized our strong support for upholding the universal 
rights and freedoms of all Egyptians, including freedoms of expression, 
peaceful assembly, and association. We will continue to call on 
President Al-Sisi and the new government to take steps to support a 
democratic transition in Egypt, one built on a foundation of the rule 
of law, civil liberties, and open political discourse. So, in Egypt, we 
are pursuing dual, though by no means contradictory, policy 
imperatives: protecting our shared strategic interests and encouraging 
political and economic reform in Egypt. Through our economic 
assistance, we are seeking to demonstrate our commitment to achieving 
prosperity and improving the lives of the Egyptian people. We are 
striving to sharpen that commitment, by focusing on key issues such as 
higher education, private sector growth, and longer term establishment 
of democratic institutions. Through our military assistance, we are 
helping Egypt protect its borders and counter violent extremism that 
threatens Egypt, the broader region, and U.S. interests. We know that 
respect for human rights and a more democratic political environment 
are also critical to achieving those goals.
    We will continue to engage diplomatically with the Egyptian 
government to underscore the need for political and economic reform, 
and work closely with Congress to ensure our assistance--military and 
economic--supports our broad strategic interests in Egypt and in the 
region.
    Chairman Cardin and Co-chairman Smith, I want to thank you for the 
opportunity to testify before you today. Certainly, we are aware that 
our budgets are facing increasing pressure, but this region remains 
vital to protecting our national interests, as we look to maintain 
relationships with key allies and to nudge nascent democracies through 
difficult transitions, with the hope of promoting stability and 
countering extremist threats in the Middle East and Africa. With 
careful, targeted assistance, and smart diplomatic engagement, we are 
successfully advancing our key strategic interests.
    Thank you again for your time and attention. I look forward to 
answering your questions.
 Prepared Statement of William Taylor, Vice President for Middle East 
             and Africa, United States Institute for Peace

    Chairman Cardin, Co-chairman Smith, Members of the Commission, 
thank you for the opportunity to present my views on political 
pluralism in several of the Arab Spring countries. The views I express 
today are solely my own and do not represent those of the United States 
Institute of Peace, which does not take policy positions. I commend you 
for this timely and important hearing.
    In addition to my current position as vice president for the Middle 
East and Africa at USIP, I had the opportunity in 2011-2013 to 
coordinate assistance to Tunisia, Egypt, Libya and Syria at the State 
Department.
    I will concentrate this morning on two of the OSCE Mediterranean 
Partners for Cooperation--Tunisia and Egypt. I believe they demonstrate 
the range of experience and practice that we can see in this region. 
Tunisia has demonstrated remarkable maturity and commitment to the 
ideal of political inclusiveness; Egypt has not.
    I will review briefly several of the events of the past two years 
in these two countries; I will then evaluate briefly the actions taken 
by leaders in Tunisia and Egypt.
    At the beginning of 2013, Tunisia was struggling politically and 
economically and facing violent unrest. The elections in 2012 had given 
the moderate Islamist party Ennahda a plurality. It formed a coalition 
with two secular parties, called the Troika, and was attempting to both 
govern and write a new constitution. After broad consultations around 
the country on various aspects of a new constitution, parliamentary 
work on the constitution had stalled by early 2013.
    The Tunisian economy, like others in the region, was suffering from 
low investment, low tourism and high unemployment.
    The attack on the U.S. embassy in Tunis by extremist Islamist 
forces in September 2012 had demonstrated the weakness of the 
government and its security forces. The instability was then 
exacerbated in early 2013 with the assassination of a prominent 
opposition party member, Chokri Belaid. While the extent of violence in 
Tunisia was small compared to the numbers killed in other countries of 
the region, these incidents shocked Tunisians and led to two events: 
first, the resignation of the Ennahda prime minister, and second, an 
effort by civil society leaders to pull the country back from the 
crisis. Several political parties supported the effort; Ennahda did 
not.
    At the same time--the beginning of 2013--the Islamist government 
that had formed in Egypt under Mohammed Morsi was also struggling to 
govern and write a constitution. Unlike in Tunisia, however, the main 
Islamist party in Egypt, the Muslim Brotherhood, had won a majority in 
the parliamentary elections, and Mr. Morsi had won a tight race for 
president. Also unlike Tunisia, the Islamist majority in the Egyptian 
parliament and the Islamist president forced through a constitution 
without attempting to achieve consensus. Further, security forces and 
Muslim Brotherhood supporters attacked peaceful demonstrators, women's 
rights were violated, journalists were suppressed, and police abuse 
continued. President Morsi issued a decree that exempted his decisions 
from judicial review. Demonstrations grew in opposition to the 
government's handling of the constitutional process as well as to 
social legislation in the parliament and economic mismanagement, 
leading to a large, army-sponsored demonstration on June 30, 2013, and 
a military coup on July 3 that installed a military-backed civilian 
government.
    At this point, events in Tunisia and events in Egypt intersect. 
Before the coup in Egypt, the Tunisian Islamist party Ennahda had 
resisted efforts by civil society to bridge political differences 
within Tunisian society. Ennahda had rejected invitations to join a 
dialogue sponsored by four parts of Tunisian civil society known as the 
Quartet and made up of the largest labor union, the association of 
employers, the Tunisian bar association and the league of human rights 
advocates. After the coup in Egypt--and another political assassination 
in Tunis--Ennahda decided to join what was then being called the 
Tunisian National Dialogue. The Quartet-led discussions lasted through 
the fall and into the winter, until, in January 2014, they reached 
agreement on three important points:
      <bullet> They agreed on the text of a new constitution, which was 
then referred to the parliament and won overwhelming approval from its 
members.
      <bullet> They agreed that new elections, presidential and 
parliamentary, would take place by the end of the year, that is, before 
December 2014.
      <bullet> Even more remarkably, the Ennahda-led coalition 
government agreed to step down and to hand over power to a non-
political, interim government that would take governmental influence 
out of preparations for the elections. In Egypt, meanwhile, the 
military-installed government had begun a harsh crackdown on the Muslim 
Brotherhood, killing more than 1,000 Egyptians and jailing and 
prosecuting thousands more. Hundreds at a time have been convicted and 
sentenced to death, often on little evidence. The repression, which the 
new military-backed government defended as a fight against terrorists, 
soon extended to journalists, activists and liberal groups accused of 
supporting terrorists. This year, Field Marshal and Defense Minister 
al-Sisi, who once professed no interest in the military taking over the 
country, declared his candidacy for president under a newly ratified 
constitution and, in May, won an overwhelming victory, even though 
turnout in the election was disappointing. U.S. assistance to the 
government of Egypt, cut off after the coup as called for by U.S. law, 
was partially restored.
    Political pluralism in the region is at its broadest in Tunisia 
today. The formation of a coalition government including both the 
Islamist Ennahda and two secular parties demonstrated that Islamist and 
secular political parties are able to work together. Islamist leaders 
soon learned that extremist violence, rather than reinforcing their 
position, undermined it, and that strong security measures were 
required to quell such attacks and maintain stability.
    The Tunisian constitution, drafted after extensive consultation 
across the country, is considered a model in the region, acknowledging 
the Muslim foundation of Tunisian society and guaranteeing rights to 
religions, sexes and political streams of thought. The constitution was 
approved as a result of wide consultation across the country, thorough 
debate in the parliament, political compromise struck by civil society 
leaders, and adherence to agreed rules as the parliament ratified the 
constitution overwhelmingly, with the parliamentarians standing to sing 
the Tunisian national anthem after the historic vote.
    The leading role of civil society--pulling the country back from 
violence, division and gridlock--is a model of dialogue over 
confrontation and conflict. The Tunisian National Dialogue, led by the 
non-governmental Quartet, was able to find consensus, bring the 
quarreling political parties into the discussion, and forge compromises 
that have set Tunisia on a positive--if still fragile--course toward a 
successful transition.
    In Egypt, on the other hand, political pluralism is, at best, 
reminiscent of previous military dictatorships. Freedom of the press 
and for civil society organizations may be more constrained now than 
under previous governments.
    Islamist leaders drew the wrong lessons from their elections, 
ignoring voices of minorities in parliament and society. Ramming 
through a constitution that was not broadly supported contributed to 
the rise of the opposition.
    The new military-backed government under President al-Sisi has not 
limited its security measures to violent extremists and has instead 
used police and the courts to eliminate political opposition.
    The cases of Tunisia and Egypt point the way toward potentially 
effective U.S. and international strategies for the region. First, the 
United States and the international community should increase support 
for the Tunisian government and people as they continue to demonstrate 
that political pluralism is compatible with Islamic societies and is 
the formula for a successful transition to democracy. This assistance 
should include financial support--in the form of loan guarantees, 
project financing, and incentives for private investment--from Western 
governments, international financial institutions and the international 
private sector. The United States should negotiate and sign a free-
trade agreement with Tunisia. Western governments should provide 
training and equipment to Tunisia's security forces. The United States 
and Europe should increase opportunities for Tunisian students to study 
abroad.
    Second, on Egypt, the United States and the international community 
should continue to condemn the repression, publicly and privately, as 
counterproductive and short-sighted. We have learned a lot in the past 
few years about governance in the Middle East; one clear lesson is that 
political oppression is not an effective tactic to increase stability.
    U.S. assistance to Egypt should concentrate on programs that enable 
Egyptians to take advantage of educational opportunities, both in Egypt 
and abroad. A large program of scholarships for Egyptian young people, 
with an emphasis on women and underdeveloped parts of the country, 
could pay great dividends for Egypt and U.S.-Egyptian relations.
    Thank you, Mr. Chairman. I am happy to answer questions.
Prepared Statement of Shibley Telhami, Anwar Sadat Chair for Peace and 
                  Development, University of Maryland

    This is not a good time for pluralism and human rights in the 
Middle East and North Africa, although there are important degrees and 
variations. In my short comments today, I will limit myself to 
describing some broad dynamics affecting pluralism, human rights, and 
democracy in the region so that we can have a context for a 
constructive discussion of the trends and possibilities. My focus will 
be on the challenges faced and not on the possibilities or the bright 
spots.
    Let me start with the impact of the Arab uprisings and three issues 
that need to be understood.
    The most profound, and probably enduring, change that has occurred 
in the region with the advent of the Arab uprisings is the empowerment 
of the individual in a region where the individual has counted less 
politically and culturally. This empowerment is driven principally by 
an expanding information revolution, especially satellite TV, the 
Internet, and social media, that is not going away. Governments have 
lost control of information, people's expectations are rising because 
of what they see outside their own countries, and the interactive 
nature of the Internet and social media is empowering. This public 
empowerment is in the long term an important and constructive force 
that is likely to push for more freedom, pluralism, and human rights. 
But in the short term, there are dynamics that lead to exactly the 
opposite, as we have witnessed in a number of states swept by public 
uprisings. It should be noted, however, that even countries that have 
felt only a limited impact of the uprisings, such as Jordan, Morocco, 
and Algeria, are not immune to the public pressure that comes with the 
empowerment generated by an expanding information revolution.
    First, the fact that the public is empowered doesn't mean it is 
unified. In fact there Arab societies--and Israel's--are highly 
diverse, and that diversity had been muted by authoritarianism, in the 
case of the Arab states, and intense external conflict in the case of 
the Israelis. This diversity is not limited to the kind of sectarianism 
that we see in states like Syria, Iraq, Lebanon and Bahrain. There are 
ideological, economic, and geographic divisions that surface to the top 
as we have seen in Egypt, aside from the roughly 10% of the population 
who are Christians, the Muslim majority is overwhelmingly Sunni. The 
divide between secularists and Islamists, among others, has pitted 
people against each other in a zero-sum confrontation that is at least 
as divisive as sectarianism. Public empowerment means that every group 
wants its voices heard and wants a share of power in a changing 
political empowerment. This is especially so as central authority 
weakens, and new rules of the game are being set up.
    Second, in the struggle for a new system, and everyone vying for 
influence and a share of the pie, not everyone is equal. In these 
environments, minorities are most vulnerable as the state weakens, and 
we see this already in a number of states, where groups like Christian 
Arabs have become particularly vulnerable. In addition, the public is 
still fighting against existing sources of power that want to assert 
themselves in a new polity. This includes state bureaucracies, 
corporations, individuals and groups with deep pockets, and, above all, 
military institutions. In fact, in all the states with significant 
uprisings, the initial outcome, and the resulting conditions, could not 
be understood without understanding the roles of the military 
institutions: In Egypt and Tunisia, the initial toppling of rulers came 
with support or at least the acquiescence of the military, and the 
different results so far are partly a function of the decisions each 
institution has taken. The outcome will continue to depend on the 
decisions of each institution. In Syria, Bahrain, and Libya, the army 
supported the rulers and the outcome was ultimately dependent on that 
decision.
    Third, transitions are destabilizing, and that usually is not a 
good thing for democracy, pluralism, and human rights. Deep insecurity 
and economic deprivation, often short-term results of a weakened 
central authority, provide fertile ground for those who want to rule 
with an iron fist--as fear trumps pluralism and human rights. We see 
this in many of the states facing the uprisings to varying degrees, and 
we see this also playing into the hands of those governments that have 
not had to deal with their own major uprisings. In fact, one reason why 
the Arab uprisings have not expanded beyond the early cases is that the 
anarchy, such as in Syria and Libya, and economic deprivation and 
limited insecurity, as in Egypt, have given rulers a way of frightening 
their own public: Do you want to be in Aleppo and Tripoli, or Amman and 
Riyadh?
    Fourth, while each country in the region has its own specific 
conditions that have to be evaluated separately, it is fair to say that 
there are commonalities in the Arab world. And regional politics are 
interwoven with domestic politics; the international is sometimes hard 
to separate from the national. Polls indicate common aspirations and, 
more centrally, note the early spillover from Tunisia across the Arab 
world, but not into other regions, including non-Arab Muslim countries. 
In addition, it is also obvious that the way the uprisings have 
unfolded in every country--with the possible exception of Tunisia--
cannot be explained without reference to major external intervention. 
Syria is of course experiencing upheavals that are at the core 
internal, but the intensity, nature, and ultimately outcome of the 
struggle cannot be understood without the role of Iran and Saudi 
Arabia, and Syria's neighboring states, not to mention the United 
States and Russia. Even in Egypt, where there is no military 
intervention from the outside, the infusion of billions of dollars from 
the Arab Gulf states is an important factor of what happens in Egypt as 
President Sisi tries to stabilize the economy.
    Fifth, the case of the non-Arab Middle Eastern state in the group, 
Israel, is of course unique, but there are potential troubles ahead for 
pluralism and democracy, whose prospects remain partly tied to the 
Israeli-Palestinian conflict. Israel is a successful democracy with the 
pre-1967 war boundaries. But two things suggest troubling trends: the 
Palestinians in the West Bank and Gaza have not had full independence, 
and the international toleration of this situation has been predicated 
on the assumption that occupation is temporary and that the focus 
should be on achieving a political settlement that leads to two states. 
If the hope for two states is lost, and a sense emerges that the status 
quo is semi-permanent, the Israeli-Palestinian inequality will be 
evaluated differently. Second, as the Israeli aspiration for a Jewish 
majority state becomes threatened within existing boundaries, we will 
see more ultra-Jewish nationalism reflected not only in the 
relationship between Israel and the Palestinians in the West Bank and 
Gaza, but also in the internal dynamics between Israel's Jewish 
minority and the 20% of its population who are Arab citizens--as we 
have begun to see already. In turn, the absence of independence for 
Palestinians in the West Bank and Gaza will generate empathy among 
Israel's Arab citizens in a manner that plays into the hand of 
extremists on both sides--thus jeopardizing the coexistence of Jews and 
Arabs even within Israel's pre-1967 borders . . .
 Prepared Statement of Zeinab Abdelkarim, Regional Director for Middle 
 East and North Africa, International Foundation for Electoral Systems

    Thank you, Mr. Chairman and members of the Commission, for the 
opportunity to testify today on the topic of Political Pluralism in the 
OSCE Mediterranean Partners. I appreciate the opportunity to share with 
you IFES' considerable expertise and experience assessing the overall 
political, socio-economic, security, humanitarian and other issues 
likely surrounding the region's democratic transition.
    I will begin with a brief synopsis of IFES' work in order to 
contextualize my testimony. Broadly speaking, IFES supports citizens' 
right to participate in free and fair elections by strengthening 
electoral systems, and by building local capacity to deliver 
sustainable solutions to problems facing countries that seek to enhance 
their governance structures.
    IFES has been active in the Middle East region for over two decades 
advocating for participatory societies where citizens have the regular 
opportunity to play an active role in making decisions that affect 
their lives and in holding their government accountable. IFES utilizes 
an integrated and innovative approach that empowers both the recognized 
local authorities, local actors and civil society activists by 
providing information on democratic norms, elections and political 
processes, international standards and best practices; carrying out 
trainings for key stakeholders on democratic and transitional issues; 
and providing resources and tools for civil society activists to 
implement civic education activities and prepare the country for a 
democratic transition.
    The Arab uprisings reaffirmed the importance of democratic 
representation and the need for opportunity, access and freedom. Today, 
IFES programming continues to respond to challenges across the region 
in countries such as Libya, Tunisia, Egypt and Yemen. Our work across 
the region was made possible by direct funding assistance from the U.S. 
Government and other international donors, including the British, 
Swiss, Canadian and Dutch governments.
    The overall situation throughout the Middle East and North Africa 
remains fragile and very polarized. As Syria's civil war rages on and 
Iraq's security and stability deteriorate, threats from Al Qaeda, 
foreign mercenaries and other radical groups stretching from the Levant 
and the Arabian Peninsula to Africa continue to undermine regional 
stability.
    The trends that played a major role in the Arab uprisings just a 
few years ago--such as demographic challenges, struggling economies, 
poor internal security, insufficient access to justice, ineffective 
governance and stagnant social transformation--continue to affect both 
the region and individual States. These trends will remain sources of 
instability, and in some cases violence, in the near future.
    Newly-elected governments and institutions continue to face firm 
resistance from their opponents and have not been successful thus far 
in managing political distrust, economic uncertainty and internal 
security. In deeply divided societies where ethnic, social, tribal and 
political affiliations are key considerations, it is imperative that 
countries' transitions are managed in a manner that is inclusive and 
consultative and engenders trust across these divisions. While any 
future elections in the transitioning countries will represent an 
opportunity for a population to express its degree of satisfaction with 
the country's state of affairs, the simmering political and societal 
conflicts that have plagued the countries of this region for decades, 
and the slow pace of political reform, will pose challenges for 
democratization moving forward. The biggest danger is the tendency to 
reduce democratic practices to voting, constitutional drafting and 
electoral events. A new constitution or the presence of electoral 
processes does not necessarily mean that a democratic tradition of 
transparency and accountability have taken root. It is particularly 
important for citizens to perceive government affairs, legal reform 
processes and the country's economic plans as open and transparent. The 
current developments across the region cannot be considered to evidence 
a new social contract between regional States and their citizens, in 
any regard. At best, it can be described as constitutional engineering 
led by a small elite faction of the dominant force or ethnic/religious 
group.
    Understandably, undeveloped and disorganized political and civil 
forces as well as nascent civil movements in places like Tunisia, 
Libya, Egypt and Jordan are unable to wield much influence on near-term 
outcomes of the transition in these countries. However, it is important 
to note that modern democratic practices evolved over centuries; it 
makes no sense to look for similarities in a remarkably different 
context, particularly so early in the game. Rather, it is best to let 
the political development run its natural course. These are changes 
that are best measured in decades, not years. It is not realistic to 
expect a fast and seamless transition to democracy. The history of 
colonial and imperial rule across the region, as well as the State's 
domination of the economy and society, shaped a culture of 
authoritarian political traditions that needs time and comprehensive 
locally-driven efforts to overcome. Each and every State will evolve 
into its own distinctive way as it adapts to national, regional and 
global changes over time.
    Additionally and most importantly, the lack of political and 
societal consensus around major issues--such as the role of Islam and 
Shariah in the affairs of the State and society, the rights of ethnic 
and religious minorities, and the rights and role of women in their 
respective societies--is a fundamental internal struggle that cannot be 
ignored. Any external intervention on these issues has little influence 
over what is considered an internal struggle that can only be addressed 
when the peoples of the region genuinely seek to invoke civil 
liberties, justice and the rule of law regardless of the governing 
system they choose to implement.
    Analysis in the midst of current political and regional events is 
never easy, especially as events unfold and their causes and the future 
itself remain clouded with uncertainty. In retrospect and based on 
close monitoring of recent and current events, this testimony seeks to 
reexamine these regional developments and offer a short outlook on key 
issues and concerns that will affect the development of political 
pluralism across the region. The following issues and concerns cover a 
range of political, economic and social factors that must be discussed 
when addressing pluralism in the region:
    1. A decline in political legitimacy in some countries: Political 
forces overseeing transitions have suffered a serious decline in 
political legitimacy and public confidence in a number of the 
countries. The lack of commitment to change, or even attempts to 
introduce serious changes to the political and socio-economic status 
quo, have resulted in serious questions about those new governments' 
true commitment to pluralism and democratic principles. Their refusal 
to exercise inclusive and transparent governance; the ongoing human 
rights abuses (including the excessive use of force); torture and other 
ill-treatment by security forces; unfair trials; and discrimination 
against women and other religious and ethnic minorities will continue 
to lead to widespread protests and eventually contribute to further 
destabilization in what has proven to be an exceptionally fluid 
environment.
    2. A breakdown in security, rising instability and an increase in 
both human and weapons trafficking: Security has been declared the top 
priority for most governments across the region. There has been a 
serious lack of stability since the inception of the 2011 uprisings as 
the security situation has steadily deteriorated and been further 
compounded by trans-border security threats. Bomb attacks, 
assassinations and weapons proliferations continue to be a daily 
problem for most governments, and arms have flowed out across borders 
and found their way to radical groups operating in the Levant, Arabian 
Peninsula, Sinai and North Africa. Impunity for political 
assassinations and other politically and religiously motivated violence 
is also on the rise across the region. The assassination of the 
Brigadier General Wissam al-Hassan that took place in Beirut in October 
2012 was a dangerous twist that mirrored other successful attempts in 
Libya, Tunisia, Iraq and Yemen. The recent assassination of Salwa 
Bugaighis, a Libyan human rights attorney, has also sent a chill 
through democracy activists across the region.
    Furthermore, the ongoing conflict between the different rebel 
factions in Syria, coupled with the inability of the Iraqi government 
to establish a viable non-sectarian political system or find a workable 
relationship between the central government in Baghdad and the 
autonomous Kurdistan Regional Government, is bound to fuel the 
sectarian wars across the border for many years to come. As a result, 
parts of Syria and Iraq may well be threatened by secession or 
disintegration and a more dangerous security situation will emerge for 
the citizens of these territories.
    3. Economic meltdown and extreme poverty in some countries in the 
region: The unstable security climate is one of the main impediments to 
economic development, and it remains to be seen whether the current 
governments can continue the pace of political, economic, and social 
reform over the long-term that many analysts see as crucial to 
addressing some countries' endemic economic problems. The lack of 
effort to seriously address these problems does not augur well for 
stabilization or democratic development and could lead to more 
protests/insecurity if not addressed in the near-term.
    4. Increased tension between Islamists, socialists, liberals and 
the other political entities: Islam was largely absent from the mantras 
that gave birth to the uprisings; nor has it been at the forefront of 
any of the nonviolent mass movements in the region since. Recent 
analysis indicates that the primary cause of discontent and 
mobilization that lead to regime change in Tunisia, Libya, Egypt and 
Yemen was an outcry for justice, rights, economic and political 
reforms. In fact, most of the Islamist movements in these countries did 
not join the demonstrations in their relevant countries until sometime 
after they started. However, in most of the transitioning countries or 
in the other Arab countries that have seen some legal and political 
reform, Islamists are a force in the new political order as they sought 
to portray themselves as the vanguard of opposition to the status quo. 
Examples of this tension can clearly be seen in Tunisia, Egypt and 
Libya. The struggle over the constitutional drafting process in these 
countries is a prime example of the growing divide between Islamists 
and liberals as they debated the inclusion of Shariah as the source of 
all legislation, the role of men and women, and criminalization of 
attacks against religion and sacred values. These debates have plagued 
the region for many years and will continue to be at the forefront of 
the region's political sphere for years to come.
    5. A decline in the status of women, ethnic and religious 
minorities: The possibility for all citizens to participate in the 
management of public affairs is at the very heart of democracy. In the 
majority of MENA countries, however, the political arena remains 
largely dominated by men, and is exclusively monopolized by men in some 
countries. Many fear the new political order of the region will impact 
universal human rights negatively, especially the already-sparse legal 
rights and protections in place for women and ethnic minorities. As the 
current governments in Tunisia, Egypt, Yemen and Libya struggled to put 
together their new constitutions and representative bodies, the issue 
of the role of women and minorities was embodied in the debates on 
constitutional articles and quotas.
    6. Power shifts and the geopolitics of the region: The struggle for 
dominance in the Persian Gulf and the Levant remains unresolved, 
volatile and highly dangerous. For decades, there has been fierce 
competition between the Salafi Saudi-Wahhabi school of thought and the 
Shiite Islamic Republic of Iran. Both sides have provided military and 
political backing to their allies across the region for years. Iran on 
one hand has been one of Iraq and Syria's strongest allies in the 
Middle East and has stepped up its military and political backing to 
these two governments in recent years. Similarly, Iran has also 
provided support, financially and militarily, to Lebanon's Shiite 
Hezbollah for decades, and is suspected of providing financial support 
and arms to the Houthi Shiite opposition in its struggle against the 
Yemeni government. Conversely, the Bahraini government and six other 
Gulf countries have accused Iran of meddling in its sovereignty and 
inciting the Shiite uprising. On the other hand, given its vast 
resources, Saudi Arabia could play a pivotal and decisive role in 
determining the trajectory of development in Syria, Egypt and Yemen. 
Its efforts have been aimed at stabilizing neighboring countries, 
particularly Yemen, Jordan and Bahrain, containing Iran's agenda in the 
region, and ensuring that the new political order in the countries 
undergoing transition does not bring the Muslim Brotherhood or an 
Islamic-democratic model, along the lines of Turkey's AK Party, into 
power; the Kingdom has serious ideological differences with these two 
groups.
    External regional players, in particular the U.S., Europe, Russia 
and China and their delayed and sometimes unwelcomed engagement make 
them ineffective players in influencing the region's political 
transformation.
    7. Changing regional priorities regarding the Palestinian-Israeli 
conflict: The peace process between Israel and Palestine is no longer 
the main regional pre-occupation, with the Arab region spiraling 
dangerously into further conflict and sectarianism. Yet the conflict 
remains a destabilizing factor that is also spiraling out of control, 
with no end in sight to the cycle of violence, revenge, killings, 
kidnappings, bombings and rocket attacks. The role of Hamas in the Gaza 
strip, as well as the Jewish settlements in lands that are meant to be 
part of the future Palestinian state, have been the main deal breakers 
each time the peace negotiations seemed to be about to produce change. 
Without a political solution that includes an end to the occupation, 
there is no telling when the current violent cycle will end.
    8. Continued resistance to U.S. involvement in the region: The U.S. 
presence in the region, both ideologically and physically, faces a 
crisis in legitimacy, where mistrust and suspicion are the dominant 
features of the regions' perception towards the U.S. The post-Saddam 
period in Iraq has proved to be filled with human tragedies and grave 
tactical errors; including terror, violence, political instability and 
a brewing, potentially catastrophic civil war. Additionally, U.S. 
selectivity in forcing democratization or applying sanctions and 
embargoes on Middle Eastern countries has been met with much criticism 
in the region, and it faces sustained disapproval in relation to its 
reaction or lack thereof to the mass revolts that spread across the 
region. Most importantly, the self-inflicted disappointments against 
America's democratic principles and international standards through the 
torture of prisoners and detainees at U.S.-run facilities in Iraq and 
Afghanistan; the holding of hundreds of persons in legal limbo at 
Guantanamo Bay; the turning over of foreign detainees to foreign 
countries known to practice torture; and the astonishing scale of the 
U.S. drone and surveillance programs abroad continue to be at the 
forefront of the regional debate over the U.S. sincerity to uphold 
justice.
    9. Shrinking space for democracy-building programs: A growing 
number of governments across the region are starting to crack down on 
democracy-building programs and publicly denouncing democracy 
assistance, describing it as illegitimate political meddling in 
internal affairs and a clear attempt to subvert political order. It is 
important to note this backlash against and skepticism of democracy aid 
is global and not limited to the Middle East and is best understood as 
likely to persist for the foreseeable future. In recent years, some 
governments have expelled implementers of democracy assistance programs 
from their soil, prohibited local groups from taking foreign funds, and 
prosecuted local persons who have participated in trainings conducted 
by international implementers. They have further formalized this 
backlash by passing controversial new laws which impose heightened 
controls on local and foreign nongovernmental organizations (NGOs) 
operating in the country. There can be little doubt that the proponents 
of this resistance are clearly learning from and feeding off one 
another, and we should anticipate the space for democracy promotion to 
continue shrinking in the immediate future. Also, within the space that 
some of these countries will leave slightly open for this type of 
programming, we will see a spike in the level of scrutiny that will be 
imposed by governments on the finances, implementation and 
participation by local actors on these programs, which can have huge 
implications on their effectiveness.
    Transition to democratic governance is not easy or fast, and the 
path to introducing and implementing democratic and political reforms 
varies across countries. It is difficult to predict how long the 
transformation of the region will take and how far it will go. However, 
the regional upheaval is far from over and the highly motivated young 
generation who is on the forefront of the call for transformation will 
continue to challenge the present circumstances and guard the flame of 
change. To remain effective, the international community and groups 
that promote democracy must come to grips with these new trends and the 
complicated history of democracy promotion and genuinely rethink their 
strategies of engagement. There are clear signs of a decline in the 
legitimacy of democratic systems in many parts of the region, including 
a crisis in representation, poor voter turnout at elections and 
referenda, a loss of trust due to poor performance by political 
parties, corruption, severe dissatisfaction among young people and an 
increase in human loss due to ongoing armed conflicts. It is critical 
that democracy promotion move beyond electoral politics and 
mobilization of the streets to enabling human rights, physical well-
being and human development. Unfortunately, the emphasis on democratic 
elections, participation by civil societies, empowerment of 
marginalized and ethnic groups and competition between political 
parties will not guarantee State responses to its citizens' needs or 
the social and political accountability of the ruling regime in 
transitioning societies. To the contrary, and as evident by the quick 
call for elections immediately after the fall of the former regimes in 
the transitioning countries, open competitive politics often accentuate 
social differences and lead to violent conflicts. Undoubtedly, there is 
a need to re-evaluate the ways in which democratization is supported 
and sustained. The human security challenges facing the region today 
require the promotion of a broader concept that includes consensus and 
peace-building processes, accountability, human rights protection, 
capacity building for social and economic development, promotion of 
public involvement and consultation and improvement of political and 
electoral processes. Disengaging or limiting democratic governance aid 
to the region at this juncture is a huge mistake; however given the 
restrictions referenced above, the international community should 
continue to leverage existing international frameworks, diplomacy and 
bilateral agreements to find ways to encourage democratic governance 
and the space for these programs. Efforts to plan future assistance 
have to take into consideration that democracy building is highly 
political and not only a technical exercise. Better understanding of 
the local context and norms, local ownership, and respect for the 
viewpoints and experiences of the targeted population are key 
principles that must guide the international community's efforts. Any 
intervention can easily lose credibility if perceived by the local 
population as ineffective or tainted by the intervening country's 
political self-interest.

                                 [all]


  

                                     
                 This is an official publication of the
                       Commission on Security and
                         Cooperation in Europe.

                 <SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

                This publication is intended to document
                developments and trends in participating
                States of the Organization for Security
                   and Cooperation in Europe (OSCE).

                 <SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

               All Commission publications may be freely
               reproduced, in any form, with appropriate
                   credit. The Commission encourages
                   the widest possible dissemination
                          of its publications.

                 <SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

                 http://www.csce.gov     @HelsinkiComm

                   The Commission's Web site provides
                  access to the latest press releases
                  and reports, as well as hearings and
              briefings. Using the Commission's electronic
                 subscription service, readers are able
                  to receive press releases, articles,
               and other materials by topic or countries
                        of particular interest.

                        Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
